<html>
<title> - BRIEFING ON INFORMATION SURROUNDING THE MARINES UNITED WEBSITE</title>
<body><pre>[Senate Hearing 115-667]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-667

     BRIEFING ON INFORMATION SURROUNDING THE MARINES UNITED WEBSITE

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             MARCH 14, 2017
                               __________

         Printed for the use of the Committee on Armed Services
         
                    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       

       Available via the World Wide Web: http://www.govinfo.gov/
       
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
37-566 PDF                WASHINGTON : 2019       


                      COMMITTEE ON ARMED SERVICES

                    JOHN McCAIN, Arizona, Chairman
JAMES M. INHOFE, Oklahoma		JACK REED, Rhode Island
ROGER F. WICKER, Mississippi		BILL NELSON, Florida
DEB FISCHER, Nebraska			CLAIRE McCASKILL, Missouri
TOM COTTON, Arkansas			JEANNE SHAHEEN, New Hampshire
MIKE ROUNDS, South Dakota		KIRSTEN E. GILLIBRAND, New York
JONI ERNST, Iowa			RICHARD BLUMENTHAL, Connecticut
THOM TILLIS, North Carolina		JOE DONNELLY, Indiana
DAN SULLIVAN, Alaska			MAZIE K. HIRONO, Hawaii
DAVID PERDUE, Georgia			TIM KAINE, Virginia
TED CRUZ, Texas				ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina		MARTIN HEINRICH, New Mexico
BEN SASSE, Nebraska			ELIZABETH WARREN, Massachusetts
LUTHER STRANGE, Alabama			GARY C. PETERS, Michigan              
                                     
                   Christian D. Brose, Staff Director
              Elizabeth L. King, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S
                               ________

                             March 14, 2017

                                                                   Page

Briefing on Information Surrounding the Marines United Website...     1

Stackley, Honorable Sean J., Acting Secretary of the Navy........     4
Neller, General Robert B., USMC, Commandant of the United States      5
  Marine Corps.
Green, SgtMajMC Ronald L., USMC, Sergeant Major of the Marine         7
  Corps.

Questions for the Record.........................................    42

Outside Statements for the Record:
  Vietnam Veterans of America's Statement for Record:
    Rowan, John, National President and CEO......................    67

  Kirk-Cuomo, Erin, Co-founder of Not In My Marine Corps.........    68

                                 (iii)

 
     BRIEFING ON INFORMATION SURROUNDING THE MARINES UNITED WEBSITE

                              ----------                              


                        TUESDAY, MARCH 14, 2017

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m. in 
Room SD-G50, Dirksen Senate Office Building, Senator John 
McCain (chairman of the committee) presiding.
    Committee Members present: Senators McCain, Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Graham, Cruz, 
Sasse, Strange, Reed, McCaskill, Shaheen, Gillibrand, 
Blumenthal, Donnelly, Hirono, Kaine, King, Heinrich, Warren, 
and Peters.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Well, good morning.
    The Senate Armed Services Committee meets this morning to 
receive testimony on information surrounding the unfortunate 
matter of the Marines United Facebook group.
    I want to thank each of our witnesses for appearing before 
the committee this morning: Acting Secretary of the Navy Sean 
Stackley; General Robert Neller, Commandant of the Marine 
Corps; and Sergeant Major of the Marine Corps Ronald Green. 
Sergeant Major, good morning and thank you for coming and thank 
you for your appearance here.
    The committee is saddened and disturbed by allegations that 
female marines have been subjected to online harassment and 
abuse, including denigrating comments and nonconsensual sharing 
of images apparently in some cases by fellow marines. Our 
witnesses are here to inform us about these allegations and 
what is being done to address the impact on the Service, 
especially those marines who have been victimized.
    All who love the Marine Corps are embarrassed and outraged 
by these allegations, none more so than our witnesses today. 
General Neller, since these allegations were made, you have 
been unequivocal in communicating to the men and women you lead 
that behavior like this is unacceptable and fundamentally 
opposed to the values of the Marine Corps.
    I want to reemphasize the Commandant's message to marines 
last week. The Members of this committee share your hope that 
marines who have been victims of harassment and abuse will 
report that conduct to their chain of command, chaplain, or 
victim leader counsel. It is our expectation that Marine 
officers and leaders will support those victims, protect them 
from reprisal, and do all in their power to prevent abuse of 
any marine.
    At this time, we do not know how many marines were involved 
in these allegations of harassment and abuse or what motivated 
those who were to engage in such disgraceful and unprofessional 
behavior. We do not know the origin of images of female marines 
on the Marines United Facebook group, some of which may have 
been taken or shared without their consent. We do not know how 
many marines may have been targeted.
    This committee expects the Department of the Navy and its 
senior Marine Corps leaders to provide updates on the 
investigation into these issues when appropriate, as well as 
keep the committee apprised of any corrective action the Marine 
Corps may take concerning policies, procedures, and the 
education and training of marines. We realize that much of this 
information may be law enforcement sensitive due to ongoing 
criminal investigations. For that reason, immediately following 
this open hearing, the committee will proceed to a closed door 
session to hear from our witnesses on these sensitive matters.
    While there may be much that we still have to learn, there 
is much that we know already. We know that the actions of those 
marines involved in Marines United do not reflect the culture 
and values of their service, not only honor, courage, and 
commitment, but also mutual respect for all of their fellow 
human beings, values that are upheld and lived each day by the 
overwhelming majority of marines. That is why Americans are 
proud of our Marine Corps, because the conduct of most marines 
is deserving of our praise and respect.
    We also know the challenges we see in our military often 
reflect similar challenges confronting broader society. In this 
case, we are all confronting the unique challenges posed by the 
advent and proliferation of social media which, like any 
technology, is an enabler, an enabler of incredibly good and 
decent things, but also dark and troubling things. The same 
technology that allows one group of marines to create a support 
group to help their battle buddies struggling with post-
traumatic stress can be used by another group to humiliate and 
demean their fellow female comrades.
    At the same time, we know that those who serve in the 
profession of arms must be held to a higher standard. They 
would not want it any other way. We know that the Marine Corps 
cannot fight and win the Nation's wars if marines do not 
respect and trust one another. This is not just a matter of 
good personal conduct. It is a matter of military 
effectiveness.
    That is why any marine who disrespects a fellow marine 
dishonors the values of the Marine Corps and harms its mission 
to defend the Nation. This kind of behavior is unacceptable for 
any marine or any member of the United States Armed Forces. The 
actions of our civilian and military leadership, not just in 
response to these allegations, but at all times, must 
demonstrate that such misconduct will not be excused or 
tolerated.
    Finally, as Members of the committee are aware, these 
allegations surrounding Marines United are currently under 
investigation by the Naval Criminal Investigative Service 
(NCIS). Therefore, I encourage Members of the committee to 
please reserve any questions that may be law enforcement 
sensitive for the closed session to follow. I do not want this 
committee's proceedings to be construed in any way that might 
interfere with the swift delivery of justice to those 
individuals that may have engaged in criminal behavior.
    Once again, I thank the witnesses for appearing before the 
committee today.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman, for 
holding this very important session to give the Marine Corps 
the opportunity to give an initial briefing on what they know 
and what they do not know about reports of abhorrent behavior 
by some of our marines using the Marines United website. It is 
unusual for the committee to receive a briefing like this one 
on an ongoing criminal investigation, but this issue is so 
important that it warrants this kind of attention. However, we 
must take care to ensure that we do not put the Commandant of 
the Marine Corps in the position of making statements that 
later could be alleged as exercising unlawful command influence 
and therefore disrupting the criminal investigation.
    The nonconsensual posting of explicit photos of female 
marines on a public website is repugnant and just plain wrong 
and inexcusable. All of us who have had the privilege of 
serving in uniform know the value of a cohesive unit where all 
Members of the unit looked out for each other and took care of 
each other. I can only imagine the harm that this type of 
behavior can have on morale and unit cohesion. Our 
servicemembers must have confidence that their fellow 
servicemembers always have their back. There simply is no room 
for behavior that humiliates and degrades a fellow 
servicemember.
    In my view, the Marine Corps must and will attack this 
problem with the vigor that the Marine Corps has demonstrated 
time and time again. It should begin with a good, thorough 
investigation to establish provable facts that can be used to 
hold offenders accountable for criminal conduct. I will be 
anxious to hear whether the NCIS has the resources and 
expertise to fully and completely investigate this matter. If 
they do not, we need to help them get those resources and that 
expertise. Once the investigation is complete, commanders will 
have the task of taking appropriate action based on the 
findings of the investigation.
    Aside from the immediate issue of marine misconduct on the 
Marines United website, the Marine Corps must also address the 
culture that allowed or facilitated that misconduct. I will be 
interested in hearing about actions the Marine Corps will take 
to improve the culture, especially in a Marine Corps that is in 
the process of fully integrating female marines into its ranks.
    With that, Mr. Chairman, I look forward to our briefings, 
both the open and closed sessions. Thank you.
    Chairman McCain. Thank you.
    We will begin with you, Secretary Stackley. Welcome.

 STATEMENT OF HONORABLE SEAN J. STACKLEY, ACTING SECRETARY OF 
                            THE NAVY

    Mr. Stackley. Chairman McCain, Ranking Member Reed, Members 
of the Armed Services Committee, thank you for this hearing.
    Discovery and investigation these past several weeks into 
the toxic, predatory behavior harbored by the website, Marines 
United, has uncovered a grievous breakdown of good order and 
discipline, a violation of our core values, and what amounts to 
an insider threat. Some unknown number of marines or former 
marines, when denigrating their fellow marines, undermined the 
very honor and integrity and unit cohesion that has long 
underpinned the strength of the Corps.
    Marines United is a bell ringer. Beyond the emotions that 
surround this issue, anger, revulsion, frustration, we are 
committed, dedicated to fixing this issue and our immediate 
actions are threefold.
    First, we must take care of those marines who have been 
victimized by this behavior, counseling, legal services, and 
beyond in strict confidence inside and outside the chain of 
command. Every resource will be made available to those seeking 
support.
    We are prosecuting the matter of Marines United to the full 
extent of our abilities, and we will hold accountable those who 
have violated the standards, going by law, by policy, by code. 
Of the 30,000 members reported to be on Marines United, we do 
not know how many are, in fact, Active Duty marines, much less 
how many in fact participated in this denigrating affair. 
Getting to the facts will take time, but the Navy Criminal 
Investigative Service is working every lead, every path 
available to overcome the challenges we are running into posed 
by nameless, faceless predators and cyber bullying on social 
media.
    Perhaps most importantly, we will get at the root 
underlying issues in order to eradicate this cancer. The task 
force formed by the Commandant is central to this effort which 
today involves senior officers and enlisted. We will expand to 
include the expertise called upon by this problem and in the 
long run will involve commitment of every tier of leadership 
within the Marine Corps. This, again, will be a long road, but 
we are on the road for good and we will share with the 
committee our efforts, our course, our progress on that course 
as we move forward.
    Every young man and woman who takes the oath to support and 
defend our Constitution, who puts on the uniform and puts their 
life on the line to defend our way of life here at home is owed 
utmost trust and respect by every American. Any breach of that 
trust and respect within the very ranks of the Services 
themselves must be dealt with immediately, decisively, 
unceasingly before, like a cancer, it steals from us our 
strength, our spirit, our honor. We will be immediate, 
decisive, and unceasing in fixing this problem and in defeating 
this attack on our core values.
    Thank you, Mr. Chairman. I look forward to addressing your 
questions.
    Chairman McCain. Thank you.
    General Neller?

STATEMENT OF GENERAL ROBERT B. NELLER, USMC, COMMANDANT OF THE 
                   UNITED STATES MARINE CORPS

    General Neller. Chairman McCain, Ranking Member Reed, 
senators of the committee, normally I appear before this 
committee to take an opportunity to tell you about the 
extraordinary actions and things that your marines are doing at 
home and around the globe. Today, however, is different. I am 
here to discuss the details of some truly disturbing and 
unacceptable actions that have allegedly been committed on 
social media primarily against the women of our Marine Corps.
    The recent release of information first uncovered by a 
combat-wounded marine reporter about the online posting of 
explicit and lewd pictures and even more troubling derogatory, 
demeaning, and in some cases sexually violent comments about 
female marines are why we are here and what we are going to 
talk about. Such actions pervert our culture and bring me here.
    As I am sure you did, I received this recent news regarding 
actions on the Marines United Facebook site with a mixture of 
emotions: disappointment, shock, anger, disgust, and outrage. 
The Marine Corps I have served for over 40 years has a problem 
and we intend to fix it.
    I struggle with labeling the problem we face. Some say we 
have a problem with our culture. Some say it is an insider 
threat. My natural inclination is to resist this because I 
believe in my heart the Marine Corps culture is based on our 
core values of honor, courage, and commitment. It represents 
who we are. The online behavior of some individuals, whether 
they are currently serving marines, former marines, or others 
who simply wandered in, have attacked our Marine Corps values, 
our ethos.
    We draw our strength from the team. Everything we do in 
training from day one is focused on the team and not the 
individual. But some seem to have forgotten that every member 
of our team is an equal and a valued member of our Corps. Every 
marine has a role to play. Every marine who earns our title 
commands the respect of their fellow marines.
    We proudly advertise the transformation that occurs at 
recruit training and officer candidate school, first by the 
methods by which we recruit, train, and transform young men and 
women from citizens to marines, but the transformation is not 
perfect in all cases. Some marines can lose their way and 
disregard or fail to comprehend our ethos. At every level of 
leadership, we must do a better job of sustaining this 
transformation and eliminating any behavior that targets any 
individual as less than a teammate or a fellow marine. We must 
attack any behavior that has a corrosive effect on good order 
and discipline of our Corps.
    I came in the Marine Corps with the problems of the 1970s 
shortly after Vietnam. Drug use and race relations were tearing 
us apart. Some of you were there then and you remember this. 
Our Commandant at the time, General Lewis Wilson, took a firm 
stance to get our Corps back to true north. He improved our 
recruiting standards and made it his personal mission to 
address those who cannot or do not want to measure up to our 
standards who needed to find another place to perform.
    I believe we face a similar situation today. The vast 
majority of marines, past and present, are American citizens 
who are good and decent people. They are as upset by the 
behavior represented on Marines United as you and I. I am 
calling on all marines to take a stand against this destructive 
conduct, to take a stand and support and respect every marine, 
to demonstrate to the American people who we really are, that 
we embody our ethos of honor, courage, and commitment.
    When any Marine unit goes into action, there are never 
bystanders. We all have a role to play. We are all to be fully 
committed to the mission. The same is true in garrison and the 
barracks back here at home. There can be no bystanders. We must 
all be engaged as teammates. Every marine has a role to play to 
ensure that our team remains strong.
    I would ask to take this opportunity to speak directly to 
every female in our Marine Corps, past and present. I know I am 
asking a lot of you right now, but I ask you to trust the 
leadership of the Marine Corps to take action and correct this 
problem. I ask you to trust me personally as your Commandant 
and when I say I am outraged that many of you have not been 
given the same respect when you earn the title ``marine.'' I 
know you are not asking to be labeled as victims, for anyone's 
pity. I know you would find that as insulting as the recent 
behavior and comments on social media. I know what you do for 
our Corps, for our team, and what you have contributed, to 
include during the past 16 years of combat in Iraq and 
Afghanistan. I know when you earn the eagle, globe, and anchor, 
you wear it as proudly as the marines you are.
    To the men in our Corps serving today and those who no 
longer wear the uniform, you are still marines. I need you to 
ask yourselves, how much more do the females of our Corps have 
to do to be accepted? Was it enough when Major Megan McClung 
was killed by an IED [Improvised Explosive Device] in Ramadi or 
Captain Jennifer Harris killed when her helicopter was shot 
down while she was flying blood from Baghdad to Fallujah 
surgical or Corporals Jennifer Parcell and Hally Ann Sherrod 
and Ramona Valdez, all killed by the hands of our enemies? What 
is it going to take for you to accept these marines as marines?
    I am committed to making this right, and I need all marines 
equally committed. We all have to commit to getting rid of this 
perversion in our culture. Enough is enough.
    So, ladies and gentlemen of the committee, we will take 
action to correct this stain on our Marine Corps. I have no 
illusions or delusions about how difficult that will be, but 
that does not mean we are going to stand by and watch it. It 
cannot go on anymore.
    I am prepared to answer your questions.
    Chairman McCain. General Neller, I want to thank you for 
that statement. I think it is strong and it is powerful and, 
frankly, it is reassuring to this committee about your 
commitment.
    Sergeant Major Green, do you have any comments to add to 
the Commandant's remarks?

STATEMENT OF SGTMAJMC RONALD L. GREEN, USMC, SERGEANT MAJOR OF 
                        THE MARINE CORPS

    Sergeant Major Green. Good morning, Chairman. Senator 
McCain, Ranking Member Senator Reed, and all Members of the 
Congress. I want to thank you all for allowing the Marines 
Corps to come before you today, the leadership, and explain 
exactly what we are doing.
    I did not prepare any words, but I can tell you that no one 
is more outraged than the leadership you see sitting before you 
today. This tears at the very fibers that bond us together as 
we fight for the Nation's freedom and liberty.
    We are protecting our victims. We are allowing the legal 
system to go forward so that we can bring those who have 
committed these crimes before the Commandant, the leadership, 
and hold them accountable. We are researching our policies and 
reinforcing the gaps. I am prepared to do whatever it takes to 
protect not just enlisted marines, but all marines and their 
dependents and those who serve under the eagle, globe, and 
anchor.
    Thank you for the opportunity.
    Chairman McCain. Well, thank you, sir, and thank you for 
your outstanding leadership.
    General Neller, has the Marine Corps embarked on an effort 
to communicate with and assist identifiable victims?
    General Neller. Sir, as far as the Marines United, there 
have been a small number of victims or people who have claimed 
that they were targeted by this website. And so we are talking 
to those, and NCIS is working investigations on those that they 
are aware of. But the number is too small. Again, we need 
others to come forward.
    Chairman McCain. What are you doing to encourage others to 
come forward, General?
    General Neller. This hearing is an opportunity to ask 
marines to come forward, not just marines that may have been 
victimized but marines that have been aware of this. I think 
that is starting to happen. We are getting information from 
other men, other male marines, that they know about this, and 
they are, as I stated, I believe as upset about this as we are.
    We had a press conference the other day where, again, I 
asked marines for their help. We have gone out to the 
leadership, told them the path where they can direct marines. I 
have directed commanders to go out and talk to their marines 
about this and directed them that if anyone comes forward, they 
can be directed toward their victim advocate, to their 
chaplain, to their victim legal counsel, or the chain of 
command, and they are going to forward this. We put a site up 
on our marines.mil webpage. If you are aware of any actions of 
this or someone is being bullied or harassed in cyberspace, to 
contact this certain number or an email address or their chain 
of command. I know NCIS has done the same. So we have gone out 
in any possible forum that we can to ask marines to come 
forward if they are either a victim here or they are aware of 
any of this behavior.
    Chairman McCain. You are assuring them that there would be 
no reprisal or retaliation?
    General Neller. They have my word that the leadership will 
not take retribution against them. I know that is a big issue. 
I have talked to some of the Members here about that. That is 
why I know it is difficult because I cannot necessarily 
guarantee--social media--one of the insidious natures of this 
problem is there is a certain level of anonymity out there. So 
if you were to push back on any of this, you immediately get 
attacked by the crowd and they are anonymous. I think for many 
of us who do not participate in that type of behavior, that is 
foreign to us.
    I will admit this is something--I am not a social media 
person. We use it to message marines and talk about the good 
things that marines do. But sites like this are not a place 
that I would think any of us would frequent, even for the 
altruistic and positive things, as you mentioned, Chairman, 
that Marines United was set up to do, how veterans deal with 
whatever issues they had coming back from the fight.
    So there is risk. I cannot protect people necessarily on 
social media. I can ensure that the chain of command is going 
to take action, and I can direct commanders to take any 
allegations that anybody makes. They are going to take them and 
follow them through and report them to NCIS or do an 
investigation. But our ability to--and this is not an excuse--
manage what happens on social media, if it remains up, is an 
issue.
    I will say, though, that when we have seen this type of 
behavior and we have gone to the organizations that host this, 
they have, in general, been very helpful with us with taking 
these sites down. But when they do that, what we have also seen 
is then they move. I would prefer to get into it in the closed 
discussion about what the legalities are about certain things 
that happen in cyberspace because there are certain things 
about the law that are not always going to be helpful to us 
getting accountability. Again, that is not an excuse, but I 
think there are some things that we may need your help with.
    Chairman McCain. I agree.
    Secretary Stackley, can commanders use the Uniform Code of 
Military Justice (UCMJ), to hold personnel accountable for 
transmitting, receiving, viewing, or possessing photos without 
the consent of the person in your view?
    Mr. Stackley. Yes, sir. Now what we are trying to do is 
actually run to ground each instance, each example that we can 
find where we have the perpetrator, we have the evidence that 
frankly has been preserved so we can hold them accountable in 
accordance with articles 120 and 134 of the UCMJ.
    Chairman McCain. Obviously, General Neller pointed out one 
of the challenges we face, and that is of these websites just 
morphing over to another site after they are shut down.
    Mr. Stackley. Yes, sir. I used the term ``nameless/
faceless.'' It is very difficult to identify the individuals 
that are on these websites. As we work with the owners of the 
websites, we have to deal with First Amendment rights. We have 
to deal with Privacy Act issues. So we are pushing it as far as 
we can to get every piece of evidence that we can find. A key 
to this, as the Commandant described, is to have individuals 
come forward. So we are trying to reach out, not just get the 
word out for people to come forward, but also provide an 
environment where they feel safe and secure to bring their case 
forward.
    Chairman McCain. Senator Reed?
    Senator Reed. Well, thank you very much, Mr. Chairman.
    I would just like to ask one question because I know there 
is great interest of my colleagues in the public session, and 
then we have a closed session later.
    General Neller, this is not the first experience recently 
the Marine Corps has had. In 2013, there was cyber bullying of 
female marines. How did you react to that issue, and what 
lessons have you learned, and how are you applying those 
lessons to this situation?
    General Neller. Senator, we went back and looked at that 
and looked at all the actions. I can give you a long list of 
things that we did as far as addressing sexual assault, 
changing values-based training at all our different levels of 
training. There was a policy written about conduct on social 
media in 2010, but it was not focused on this type of thing. We 
are in the process of actually issuing out today an updated 
policy on conduct on social media and what is acceptable and 
not acceptable and what is a violation of a lawful order or 
article 134 or article 120(c).
    So there was a lot of training that we did, but looking 
back at it--I mean, I can only speak for myself, Senator. We 
were focused on the issues of sexual assault which were very 
important at that time. I do not think we got at the social 
media thing to the level that we are going to get at it now.
    I put myself in that category. I went back and I thought 
about all the stuff we talked about and all the things that the 
Commandant, General Amos, did with the Heritage brief, about 
our values, about how we treat each other, the things we have 
done since about discussing alcohol abuse and protecting what 
you have earned, and even the message I put out after the first 
of this year stating we need to treat each other better. But 
when I wrote that, I did not have in my mind this particular--
so I have no excuse for that. We were dealing with a lot of 
things.
    So now this is front and center. I think part of it is I 
think victims were afraid to come forward because if they came 
forward, they were going to be attacked tenfold on social media 
again. I think for those that do not participate in this 
domain, I think we are ignorant. I am not ignorant anymore. I 
am trainable and I accept responsibility for that. But we were 
focused on other things that we were trying to get at. I do not 
think social media was absent from that, but I do not think it 
got front and center like it should have at the time.
    Senator Reed. Thank you very much.
    Again, I think we all recognize the seriousness of this 
issue. It goes to the very heart of the Corps, not just the 
Marine Corps but every service. You cannot have individual 
marines, soldiers, sailors, airmen, coast guardsmen who are 
marginalized because of gender or any other characteristic. So 
we have a lot of work to do, both you and the United States 
Congress.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. General Neller, the first quote that I 
heard from you was that those who are involved will be held 
accountable. I know your background. I know you. I have every 
confidence that is what is going to happen. I have no 
questions.
    Chairman McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Secretary Stackley, a November 2015 report from the 
Government Accountability Office (GAO) found the Department of 
Defense measures to assess the effectiveness of its sexual 
assault prevention efforts were not fully developed and missing 
key attributes. Can you tell me if anything has been done since 
that GAO report to address that?
    Mr. Stackley. Yes, ma'am.
    Senator Shaheen. Can you tell me specifically what?
    Mr. Stackley. Okay. There are a list of initiatives that 
have gone out in terms of first identifying cases of sexual 
assault. This gets right down to everything from anonymous 
surveys, to interviews, to capturing reports and then running 
reports to ground.
    I could provide examples of things that have been done, but 
when we look at the statistics and the results, what we are 
trying to do is correlate measures that were taken with results 
that we are getting. Frankly, we are challenged to do that. The 
statistics move around, and within the Department of the Navy, 
within our SAPRO [Sexual Assault Prevention and Response 
Office], I am trying to correlate what actions are we taking 
that are giving us positive results that we have confidence in 
so in fact we can grow those actions versus a number of 
initiatives that we cannot quite correlate to the results that 
we are looking for.
    Senator Shaheen. Well, I would argue that one of the 
challenges is that people are not being held accountable in a 
way that sends a very strong message to others that they serve 
with that this is unacceptable behavior.
    General Neller, according to a 2014 RAND military workplace 
study, the Marine Corps has the highest rate of sexual assault 
among the service branches. I know that we are not talking 
about sexual assault directly as we often think about the 
definition in this scandal, but I do believe there is a 
correlation between the two. So can you just respond to why you 
think that is?
    I appreciate your statements and the statements of everyone 
here about needing to address this issue, but understand that 
this committee has heard those kinds of statements for as long 
as I have been on the committee and I think much longer. So it 
is hard to believe that something is really going to be done 
when we hear this repeated again and again and we see these 
kinds of situations again and again. So why should we believe 
that it is going to be different this time than it has been in 
the past?
    General Neller. As I stated earlier, Senator, this 
particular issue--I mean, we can talk about sexual assault and 
the numbers. As the Secretary said, we have struggled. I had 
expected that the numbers would go up when we started our 
training back in 2013 to try to get after sexual assault per 
se--and I have talked to Senator Gillibrand, Senator McCaskill 
about this--and that they would flatten out and then they would 
go down. They flattened out but they have not gone down.
    I can give you some other statistics. I can track every one 
of these allegations to show you how it was culminated in some 
sort of action or no action.
    Why is it going to be different now with the social media I 
think we addressed the action of individuals which is sexual 
assault or bullying, but I think the bigger issue is within the 
culture, we have just a fact with all marines that all marines 
are marines. The female marines that are there are a small 
group in our Corps, and for whatever reason, there are still 
some number--and I do not think this is separate from the 
sexual assault issue, but this issue of denigration of women, 
objectification of women, misogyny, however you want to 
articulate it is just bad behavior. It is tied to the way that 
some group of male marines look at women in the Marine Corps.
    I think we can fix that. I think we can fix it by holding 
those accountable who do not want to accept the fact and we 
make it part of--we got to tell commanders, hey, look, there 
are things you can do out here within the UCMJ if those 
parameters are met. But this is a very difficult problem.
    On the sexual assault thing, I am not going to give up on 
any of this. I still think part of our--I mean, I could give 
you the demographics and that is an excuse. You know, the 
percentage of the marines and what their ages are and all that 
and the numbers. We are a young force. Okay. But they are 
marines and they are expected to conduct themselves at a higher 
level. You expect that. I expect that.
    I think that alcohol abuse is another problem that we are 
going to have to deal with that I think we will get after that. 
But this is all about our leaders going out there, setting the 
example, and expecting the behavior is going to be in a certain 
way.
    Is it going to be different? It has got to be different. 
That is my charge to myself. I have got to go out there and, as 
the senior marine, say this is the way it is going to be, and 
if you are not going to get along--if you have a problem with 
this, then, as I mentioned in the video I did, you need to ask 
yourself do you really want to be a marine. If that is not 
going to change it, then--I believe it is. I have heard enough 
from enough men and women that are seniors out there that they 
realize--why they did not realize it before I have no excuse--
that we are going to change and that we can change. All I would 
ask is an opportunity to address this. I know you have heard 
that before, but that is my ask.
    Senator Shaheen. Thank you, General. I would suggest that 
you use the term ``survivor'' rather than victim for those 
people who have been attacked.
    General Neller. Yes, ma'am.
    Chairman McCain. Senator Fischer?
    Senator Fischer. General, this behavior has to change. It 
has gone on for too long, and we need to see those changes.
    You spoke about social media and the lack of recognition 
that you had on what is going on on social media. The Corps 
does have a policy on social media. Is that correct?
    General Neller. Yes, ma'am, we do.
    Senator Fischer. You have spoken today about making changes 
to that policy. Do you have any ideas on how that policy needs 
to be changed? What would make a new policy different and more 
effective at this point?
    General Neller. I believe the policy that we revised is 
focused more on certain behaviors such as the one we are here 
to discuss today on social media and that to tell all marines 
that these types of things are unacceptable. They are not part 
of the inner marine and they are also punishable under the 
Uniform Code of Military Justice. The previous policy said 
that, but it did not say it quite as directly.
    But it is also going to take leadership to go out and 
reinforce that, to not just hide--not hide, but to use a piece 
of paper. But they are going to have to go out and sell it. 
They are going to have to talk about it. They are going to have 
to make commanders and senior enlisted understand that this has 
got to change.
    Our marines--they use social media. They use it for a lot 
of good things, as was mentioned by the Chairman. We use social 
media to tell the story of the Marines, and that is fine. But 
marines have got to understand that using the social media to 
degrade, denigrate, be disrespectful to another marine is not 
just not who we are but it is illegal and that if you are found 
doing this, then you are potentially subject to the Uniform 
Code of Military Justice.
    Senator Fischer. I assume marines are educated on the 
current policy?
    General Neller. They are, but I do not believe--I cannot 
tell you, Senator, that it is done with enough time or 
reinforcement. We start talking to marines about the values and 
ethos of the inner marine when they are still waiting to go to 
recruit training. Whether or not there are specific discussions 
about this type of thing, I cannot say to you that it is done 
in a manner that is satisfactory to me both in the quality of 
the discussion and the quantity. But it will be.
    Senator Fischer. Have there been any punishments for 
marines who have violated the current policy that you have?
    General Neller. Senator, I cannot give you a specific quote 
that this individual did X and was found guilty at Y. I would 
ask to take that for the record and get back to you. I asked 
that question myself. But much of this type of behavior should 
be held, could be held accountable at a nonjudicial punishment, 
which is an administrative action, and I do not have the data 
to give you that answer.
    [The information referred to follows:]

    To date (since the report of misconduct involving members the 
Marines United Facebook group), there have been at least 116 subjects, 
suspects, or persons of interest (hereinafter, collectively, 
``subjects'') reported for alleged online social media misconduct 
involving 22 non-DOD civilians and 94 Marines as subjects. Of the 94 
cases in which the Marine Corps maintained at least administrative 
jurisdiction, 68 cases have reached disposition and 26 remain in a 
pending status. In terms of severity of action, there have been guilty 
findings at 5 special courts-martial and 1 summary court-martial; 10 
cases adjudicated via non-judicial punishment; 5 administrative 
separations; 25 formal adverse administrative actions; and, in 22 
cases, no formal administrative action. In each of these cases 
commanders have exercised their independent and unfettered disciplinary 
disposition authority in reaching their decisions. The investigation 
into the Marines United Facebook Group involved a review of more than 
120,000 images from over 170 other websites. Investigators determined 
that while there were more than 22,000 images with persons depicted who 
had a possible Department of Defense affiliation, there were 
approximately 7,867 images with persons depicted who had a possible 
Marine Corps affiliation. Employing technology to include facial 
recognition software, investigators determined that only 68 potential 
victims were identifiable of the 7,867 images. Further, investigators 
confirmed 31 of the 68 potential victims, and only 8 confirmed victims 
were able to identify a subject. These subjects are factored into the 
116 subjects reported for investigation and disposition.

    Mr. Stackley. If I could add. We have been able to track 
individuals who have used government computers to access these 
types of websites, and then we are able to identify the 
individual and clearly bring punishment to bear.
    Senator Fischer. That was my next question. Were government 
computers used to access these websites or to post anything on 
them?
    Mr. Stackley. We have not been able to find any incidents 
of government computers being used to access or post, but we 
are continuing with the investigation.
    Senator Fischer. General, how well do we understand the 
membership of this group and how it breaks down between former 
marines and Active marines and also retired marines? Do you 
have any information on that right now?
    General Neller. Senator, all I can tell you is we believe 
the numbers of individuals that belong to Marines United was 
about 30,000 on their public facing Facebook page. How many of 
them are Active or former or other services or civilians I do 
not have the answer to that. The NCIS is looking into that.
    The place where these individuals went to post these 
pictures and make their comments was a link to a server hosted 
by another Internet provider, which has since been taken down. 
The numbers that we believe had access to this site was much, 
much smaller than 30,000. I would ask for NCIS to give you that 
number in the closed session.
    Senator Fischer. Thank you.
    Chairman McCain. Senator Gillibrand?
    Senator Gillibrand. Thank you, Mr. Chairman.
    General Neller, the military, the Marines, have been aware 
of online victimization, online exploitation of other marines 
since 2013 because there is a letter here from Jackie Speier to 
Chuck Hagel and General Amos with screenshots. So there is no 
mystery that this has been going on for a very long time. It 
was right in front of you and the command to do something about 
it since 2013.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    We have countless victims who have come forward, and they 
are not just being harassed online. Once their name, face, 
where they are stationed is posted, do you think the harassment 
ends online? It does not. I spoke to a marine yesterday. Excuse 
me. I spoke to a civilian yesterday who has been continued to 
be harassed in her community because her ex-boyfriend exploited 
her online.
    So I have to say when you say to us it has got to be 
different, that rings hollow. I do not know what you mean when 
you say that. Why does it have to be different? Because you all 
of a sudden feel that it has to be different?
    Who has been held accountable? I very much align myself 
with Senator Fischer's comments. Who has been held responsible? 
Have you actually investigated and found anybody guilty? If we 
cannot crack Facebook, how are we supposed to be able to 
confront Russian aggression and cyber hacking throughout our 
military?
    It is a serious problem when we have members of our 
military denigrating female marines who will give their life to 
this country in the way they have with no response from 
leadership. I can tell you your answers today are 
unsatisfactory. They do not go far enough.
    I would like to know what do you intend to do to the 
commanders who are responsible for good order and discipline. 
All of this behavior is in violation of article 120 and article 
134 as so stated. They are violating the Code of Criminal 
Justice. Why are commanders who have asked for all 
responsibility to deal with sexual assault and these behaviors 
for the 5 years this committee has been focused on this issue--
you have demanded that you maintain control of all these 
issues. But where is the accountability for failure? Who is 
being held accountable for doing nothing since 2013? Who? Which 
commander?
    I am very concerned that this is part of a culture that is 
resulting in the high levels of sexual assault. We know from 
the fiscal year 2014 SAPRO report that 60 percent of men and 58 
percent of women who experienced sexual harassment or gender 
discrimination in the previous year throughout all the Services 
indicated that a supervisor or unit leader was one of the 
people engaged in the violations. That is a problem with our 
command.
    So if you are dedicated to fixing the culture of the 
marines and all the Services, what do you plan to do to hold 
commanders responsible who fail to get this done?
    General Neller. Senator, I understand and share your 
concern. If I were aware or I would expect that any commander 
who was aware of someone who has reported any allegation of 
anything, but particularly something as serious as sexual 
assault, and the chain of command did not do anything, that 
that commander would be held accountable.
    I do not have any statistics for you on that. I can tell 
you that of all those individuals who have come forward with 
allegations of sexual assault, what has happened to individuals 
that the charges ended up with some sort of process and ended 
up with an adjudication, but those are just numbers.
    As you clearly and rightfully state, this is a problem with 
our culture. I mean, I do not have a good answer for you. I am 
not going to sit here and duck around this thing. I am not. I 
am responsible. I am the Commandant. I own this. You know, you 
have heard it before, but we are going to have to change how we 
see ourselves and how we treat each other. That is a lame 
answer, but ma'am, that is the best I can tell you right now. 
We have got to change and that is on me.
    Senator Gillibrand. My time has expired.
    Chairman McCain. Senator Cotton?
    Senator Cotton. I was very disappointed and troubled to 
read this news recently, as were all Members of this committee 
and most Americans no doubt. I am reassured by the comments of 
General Neller and the Sergeant Major this morning about how 
seriously they take it and the gravity with which they treat 
it.
    General Neller, you mentioned that there are 30,000 members 
of this group. You do not have the breakdown of Active versus 
Reserve versus retired. Any indication yet of the breakdown 
between marines, NCOs [non-commissioned officers], and 
officers?
    General Neller. Not in specific numbers. I think we are 
going to get that information, Senator. I am not going to 
speculate on what the level of officer involvement is or is 
not. But I think the NCIS folks can tell you that. I do not 
know the number. I would be speculating. I would not say this 
is--it is highly unlikely this is just enlisted. It does not 
really matter.
    I would just remind, not to stick up for Marines United, 
but the great majority of people that went to this site--and 
there are other sites. We find sites all the time. We are 
looking out there and NCIS is looking, and people are telling 
us about other sites. So Marines United is not alone in this 
despicable, disgusting behavior.
    But I think eventually we will know the breakdown, not just 
who was a member of Marines United but who went to this other 
link and participated in this behavior.
    Mr. Stackley. Sir, if I could add.
    Senator Cotton. Yes, Mr. Stackley.
    Mr. Stackley. To date, we are dealing with cooperative 
information. In other words, we are trying to draw 
information--short of probable cause in which we can seize the 
information, we are gaining it cooperatively. NCIS has opened 
up a tip line. They have received as of yesterday 53 calls on 
that tip line that is opening up other avenues to help to 
identify individuals but also to identify these other sites 
that the Commandant has referred to.
    In my opening statement, I called this a bell ringer. This 
is a bell ringer. We are not going to go back. We need to dive, 
plumb the depths of this issue to understand how far, how wide 
it is, and then working up and down the chain of command, 
whether you call it culture, whether you call it good order and 
discipline, get not just every marine, every man and woman in 
uniform to understand what our standards are, what is and is 
not acceptable on one hand and, on the other hand, prosecute 
these other avenues where this behavior is taking place to the 
extent of our ability. We are not going to go backwards.
    Senator Cotton. We have spoken at this hearing this morning 
quite a bit so far about law and policy, and those are 
important questions. I want to speak about the expectations we 
have for the young men and women we have in uniform putting 
aside law and policy.
    Back when I was a company grade officer and we had to do 
safety briefs every Friday afternoon to ensure that if our 
soldiers misbehaved on the weekend, we could tell our chain of 
command that we had ordered them not to do so. Rather than 
getting into every single detail that soldiers might do over 
the weekend, I would simply say obey your general orders and 
the law and be a good soldier, a good citizen, and a good man. 
I assume that your company grade officers and company grade 
NCOs do something similar on weekends or before passes.
    Putting aside the requirements of law and policy, General 
Neller, do you believe every marine should know that this kind 
of conduct violates the spirit and the ethic of the Corps?
    General Neller. Senator, you would think, after all the 
discussion and all the training and things that we have done, 
that people would understand that this type of behavior was 
unacceptable. But apparently whatever we have done or tried to 
do has not worked or we have not been clear or people think 
that they can go on social media with some persona or avatar 
character. But as Senator Gillibrand rightfully stated, I mean, 
some people use their full name and their unit, and because 
they participate, the frustration is what is a crime and what 
is not as opposed to boorish, stupid behavior. This is beyond 
that. So that is where we are in working through that right 
now.
    Yes. I believe even if they do not, they should now. I am 
going down Camp Lejeune tomorrow. I am going to talk to people 
and make sure they try to make this as crystal clear as I 
possibly can.
    Senator Cotton. Sergeant Major, if I could just ask you one 
question.
    Chairman McCain. Your time has expired.
    Senator Blumenthal?
    Senator Blumenthal. Thank you, Mr. Chairman.
    You used the words, Commandant Neller, ``despicable and 
disgusting.'' That certainly is a feeling that everybody on 
this panel shares with you. I think also many of us share the 
passion and impatience that Senator Gillibrand expressed very 
powerfully because there have been instances in the past, and 
your acknowledgement that perhaps the past violations of trust 
and law have not been addressed sufficiently aggressively may 
give us some comfort here. But I think we are all going to 
watch closely and demand from you not just the words that you 
have given us, which we trust, but also action which speaks 
louder than words.
    Do you know personally of any commanders who had knowledge 
of this site before it was disclosed?
    General Neller. No, Senator, I do not.
    Senator Blumenthal. Do you believe that the same kind of 
aggressive discipline should be focused on the chain of 
command, as well as on the perpetrators who were involved in 
the immediate conduct, if they had knowledge?
    General Neller. I do.
    Senator Blumenthal. Will you assure us that you will take 
aggressive action against them?
    General Neller. I do.
    Senator Blumenthal. You mentioned earlier that you thought 
that nonjudicial punishment was appropriate for the marines who 
may have been involved or at least many of them. Would you 
agree that the Uniform Code of Military Justice should be 
applied as aggressively as possible in these instances and that 
violation should be prosecuted to the full extent of penalties 
that can be achieved?
    General Neller. Let me clarify my comment. When I said 
nonjudicial punishment has applicability, it does, but whether 
that is the level at which these allegations are adjudicated is 
up to the chain of command. All I was trying to imply is that 
that is a tool available to commanders. If the act is more 
egregious, then there would be other venues, more serious 
venues available to commanders.
    Senator Blumenthal. Would you agree that the chain of 
command may be unable to prosecute as aggressively as possible 
if in fact there are allegations within the chain of command 
that ought to be pursued?
    General Neller. I do not think that should make a 
difference. I mean, it might cause a commander if someone or 
their subordinates was complicit in this, but a violation is a 
violation. We are all accountable.
    Senator Blumenthal. But that might make it more difficult 
for someone to take action against a fellow marine who was 
within the chain of command. Would there be some process even 
now under existing law? We have sought to reform or change it 
to make sure that there is accountability.
    General Neller. We select our commanders based on their 
skill and their ability and their potential to command. They 
have got to make the hard decisions. And so if that involves--
we have all done it. If that involves disciplining somebody 
that is in our own chain of command or that you know, them that 
is what you do.
    Senator Blumenthal. Two articles of the Uniform Code of 
Military Justice have been mentioned, 120 and 134. Neither 
specifically prohibit cyber bullying. My thought has been that 
perhaps there ought to be a specific provision that is 
applicable to the conduct involved here which, in effect, is a 
form of cyber bullying. Would you support such a provision?
    General Neller. We have had discussions about whether or 
not the UCMJ has the ability to address this. To me, we have 
stated what behavior in cyberspace is acceptable, not 
acceptable. To me that has the weight of an article 92 
disobedience of an order. So 120(c) addresses specifically 
taking someone's picture without their permission and using it 
and 134 would address good order and discipline and those 
things. So I believe the tools are there if that is the level 
of punishment or administrative action you wanted to go to if 
the facts support that.
    But I think there may be some discussion about--I think 
that is something that we are going to get into with this task 
force whether there are provisions within the UCMJ that may 
need to be more specific about this particular type of 
potential offense because this is not new, but there have got 
to be some tools for commanders to be able to address this 
specifically.
    Mr. Stackley. Senator, if I could add. On cyber bullying, 
we hypothetically are talking about ways we could prosecute it 
through the UCMJ, but it has not been tested yet. Your question 
regarding is there value in getting into greater detailed 
specifics within a specific article, I think the task force 
which the Commandant has launched, I think that is central to 
one of the areas that they are, in fact, looking at. We need to 
keep it on the plate, and we need to come back to you with 
specific recommendations.
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    Those who participated in these disgusting and horrible 
actions have not only failed our Marine Corps, they have failed 
the men and women who wish to join your ranks and they have 
failed our country. I am not as eloquent as some of the other 
members on this panel. All I can do is express to you how 
disappointed I am. I am very disappointed.
    General Neller, I hope that you can convey the concerns you 
have delivered to this committee today directly to your 
marines, not through a press conference, not through your 
designees, but directly to as many marines as you possibly can. 
Implementing change to this type of behavior begins at the 
ground level, and you are a leader, sir.
    As reports continue to come in across the DOD [Department 
of Defense], it is clear that this seems to be Service-wide. 
This is Service-wide. We need a Service-wide approach to 
addressing this issue. This is a cultural problem not just in 
our military but society at large. Hearing that many 
individuals were not surprised about these reports disappoints 
me. Hearing that there may not be a way to hold many of the 
people that were involved in this accountable--that angers me.
    Illegal or not, members of our community need to know this 
type of activity creates a culture that leads to sexual 
assault. Those that sat complacently by as this unfolded from 
the NCOs to the officers are all contributing to this issue. 
There is no excuse, and you have stated that, General Neller. I 
appreciate that greatly. There is absolutely no excuse for 
this, especially for those who wear our Nation's uniform.
    The steps that you now take moving forward following this 
event will define each of us before this committee. Regardless 
of what legal or administrative action you are able to take, I 
hope this leads to you personally sitting down and you, 
Sergeant Major, as well and educating our marines.
    A social media handbook has been discussed by a number of 
folks here on the panel, but how many marines actually read 
that? How many sit down and read it? It is up to all of us to 
educate our marines.
    The Marine Corps has a high turnover rate. We have 
thousands of marines coming through every year, and we have to 
make all of them aware of what they represent. They need to 
know that the actions they take here at home and online can 
take away from the success of their brothers and their sisters 
in arms.
    This is absolutely an issue that impacts our entire 
society. It is an absolutely horrible issue impacting us, but 
it is one that we must stop. I say we. It is not just the 
Marine Corps. It is those of us who are sitting here today.
    We will be evaluating how to give you the right tools, the 
necessary tools to combat this issue, and absolutely you must 
hold those marines accountable.
    In the meantime, I hope that you will continue to evaluate 
what we need to do to combat this issue, not just in the Marine 
Corps but Service-wide, and what we need to do to impact 
society at large.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    The marines who did this have betrayed their fellow 
marines, and these women marines stood up and said they would 
put their lives on the line for this country and give them up, 
if necessary. This is the treatment that they got in return.
    But they have also betrayed those marines who fought in 
Anbar Province and Helmund Province, in the Gulf, in Vietnam 
and Korea and Guadalcanal, Iwo Jima who built the Corps inch by 
inch, step by step. These marines who have done this have 
disgraced themselves, but they also let down the Corps and all 
of those other marines who fought for our country to help 
create the Corps.
    I went online and found that there is already a Marines 
United 2.0 posting links to the same materials, that already 
has over 3,000 members. What can be done about this, and what 
does that say? General?
    General Neller. Sir, if the Marines United 2.0 is there for 
their original mandate to help veterans, that is fine. But if 
there is a link that takes anybody who can get access to a 
similar page where there are posted pictures of anybody, but 
more likely female marines, and when they are making 
commentary, we will go like we did before, and we will ask the 
provider to take it down. But that is where we find ourselves.
    Now, whether we can get the information or make them hold 
that data for us--you know, we have recently in this 
investigation with Marines United--NCIS recently got some more 
information, so that should allow us to get to that.
    But, again, we are addressing the symptom here. The problem 
is that anybody would even want to do this in the first place. 
That is the part--this does not make any sense to me. Okay, 
they are doing it. Why? What is it that makes anyone feel that 
they are going to make themselves feel better by being 
degrading about any individual, whether it be based on their 
gender or their race or their sexual preference? If they are, 
indeed, a marine or anybody--it does not matter--that is not 
who we are and what we do.
    So our folks now and with NCIS's help--we are out there 
looking and we are finding other sites. We go through the legal 
process. They go to the provider and ask them to take it down. 
I think NCIS can give you more information in the closed 
session because there are other sites out there. Marines 2.0 is 
just one. Again, some of them are legit and they do good or 
proper things for veterans or anybody that belongs. Others not 
so much. Not at all.
    Chairman McCain. Senator Sullivan?
    Senator Donnelly. I would suggest, General, that they are 
also disrespecting you.
    Chairman McCain. The gentleman's time has expired.
    Senator Sullivan?
    Senator Sullivan. Mr. Chairman, I believe he had a minute 
and 23 seconds left.
    Chairman McCain. Please proceed.
    Senator Donnelly. Thank you, Mr. Chairman.
    What I wanted to say is they are basically challenging you, 
General. They are thinking that they can get away with this. 
You are the Commandant of the Corps, and I think it is up to 
you--and I trust and believe you will tell them and show them 
that they are not bigger than the Corps, that they cannot treat 
their fellow marines like this.
    How can women marines feel that the Corps has their back? 
When a young woman makes a decision that, number one, she wants 
to serve the country and put her life on the line for us, why 
will she choose the Marines? How do we reinstate that trust 
that we have her back?
    General Neller. The only way we can, Senator, is through 
our actions and show that anyone who sticks their hand up to 
support and defend the Constitution of the United States and 
has the willingness to earn the title of marine is going to be 
a full-fledged member of the team like the two female marines 
sitting behind me here. We have got to make them believe it. We 
have got to earn. They do not just have to earn the title of 
marines. We have got to earn their belief that they are going 
to get the same opportunity as anybody else to compete and be 
the best person they can be. So I can sit here and say it. We 
have got to re-earn the trust and not just of them, this 
committee, and the American people. I understand that.
    Senator Donnelly. Thank you, Mr. Chairman.
    Chairman McCain. My apologies, Senator Donnelly, for 
cutting you off.
    Senator Donnelly. Do not worry, sir.
    Chairman McCain. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    I want to begin by thanking Senator Gillibrand for her 
calling for this hearing and her unfailing advocacy for women 
in the military.
    Like you, General, I am a father of three daughters and 
also spent a lot of my civilian career focused on combating the 
problem that Senator Ernst mentioned is a problem not only in 
the military, but across the country of domestic violence and 
sexual assault. I think Senator Gillibrand's focus on this 
benefits the military and the country.
    I also appreciate your and the Sergeant Major's opening 
statement to say you are going to take responsibility for this.
    I think like everybody on this committee, General, when I 
first read the news about the marines attacking and degrading 
other marines--it was what Senator Donnelly just mentioned--I 
was outraged, disgusted, embarrassed as a citizen, as a 
lawmaker, and as a marine. I am here in this capacity as a 
United States Senator, but earning the title of marine is the 
proudest personal achievement of my life. It always has been, 
always will be.
    You know, we talk about that there has been no more 
formidable fighting force in the world, but the Marine Corps in 
my view goes much deeper than that.
    I mentioned a story. Last year, I was walking down the 
street on Capitol Hill. There was a mom and two young kids, a 
boy and a girl, walking by me, and a group of eight or nine 
marines in PT [physical training] gear coming up strong, 
formidable, and they passed this family, and this mom looked at 
her kids and said those are marines. They are courageous. They 
are fearless, and they will do anything to protect our country 
and keep us safe. That is what mothers in the country are 
telling their kids.
    This goes way deeper than this. I believe that if the 
Marine Corps cannot prevent marines from attacking and 
degrading women marines, that the Marine Corps is going to lose 
what it means to the country, to the Marine Corps, to other 
marines.
    So, General, you talked a lot about a perversion of the 
culture. What do you mean by that?
    General Neller. Well, Senator, like you I believe all 
marines have a belief that our motto, semper fidelis, our core 
values of honor, courage, and commitment are what we are, and 
that everything that we have seen in this Marines United event 
is not. Anybody that is out there involved in this or any other 
site that are doing this--and as has been accurately pointed 
out, this is something that has been out there for some time. I 
do not know how they think they can reconcile the inner marine 
with this. I do not mentally see how you get from A to B.
    Senator Sullivan. One of the things about the Marine Corps 
and all Military Services, but particularly in the Marine 
Corps, there is a culture and it is part of what we do is we 
bring violence to the enemies of our Nation, and we are good at 
bringing violence upon the enemies of our Nation. Is it the 
perversion of the culture where the marines are actually 
bringing violence upon women marines? Is that not the 
perversion? The culture, which every marine who is honorable 
thinks this is a disgusting perversion?
    General Neller. I believe that is a very accurate 
description, Senator. Thank you for that.
    Senator Sullivan. Sergeant Major, can I ask you a question? 
You both have talked about boot camp and getting at this early. 
One of the things, as you know, that the Marine Corps does very 
well in boot camp is it focuses on the history of the Marine 
Corps. You walk out of boot camp, if you can make it, after 3 
months, and you know about Chosin Reservoir. You know about Iwo 
Jima. You know about all those things and you take pride in it.
    General, I thought your opening statement about referencing 
five marine women who were killed in action defending our 
Nation--do you think, Sergeant Major, that focusing on some of 
those issues with regard to our history in boot camp can start 
to set the culture on a more proper course to recognize that, 
hey, look at these. They are marines. Right? It does not matter 
if they are men or women. They died for their country. Could we 
do a better job of instilling that at the outset as we shape 
the outlook and minds and culture of these 18- and 20-year-old 
kids?
    Sergeant Major Green. Absolutely, sir. The task force that 
the Commandant has put together, led by the Assistant 
Commandant of the Marine Corps--we met a few days ago, and that 
is exactly where we are starting. We are going beyond that and 
starting at the delayed entry program. We are looking at 
everything we teach marines, and we have to understand within 
ourselves, in a 4-year enlistment 120,000 marines would have 
gone in and out of the Marine Corps. 120,000. We would have 
turned over two-thirds of the Marine Corps in a 4-year period.
    We need to step back after 15, 16 years of fighting and we 
are still in that fight and absolutely take a look at not only 
how we make marines from those who walk through the door and 
want to be something better themselves, but also how we retain 
marines and families with our ethos of honor, courage, and 
commitment.
    We are going to seriously take a look at that because the 
processes that worked yesterday--they are not working today 
because there are other societal ills that come through the 
door with every individual that comes in, that the tools that 
we have are not being as effective as they need to be today. So 
we are going to take a look from the recruiting of our marines 
until the time they leave the gates and also beyond that as to 
veteran support organizations out there, to take a look at our 
motto, ``once a marine, always a marine.'' Every marine that 
leaves out the door, tell them they are responsible for that 
eagle, globe, and anchor.
    There are some bad actors that have worn the eagle, globe, 
and anchor. They are determined to keep these things going, and 
we know this for a fact. We've got to do better with our ethos 
and find the tools, the ways and convince those that come 
through the gates and those who, like you said earlier, are 
thinking about coming through the gates, the moms and dads who 
are talking to their kids.
    I have a son at the Naval Academy. They left for spring 
break going to Orlando, and my wife is freaking. She is scared 
to death. I just sat down with the four boys in my basement and 
talked about this, talked about sexual assault, talked about 
the ethos of honor, courage, and commitment, the fact that one 
day they too are going to lead and they may lead in combat. But 
first they must lead back here in peacetime showing that they 
are worthy leaders and lead marines and sailors in combat.
    I have a 14-year-old daughter. I would like to be proud if 
my daughter said she wanted to be a marine, just like my son. I 
have to assure her I will leave the footprint, along with the 
Commandant, that provides a way of safety for not only my kids 
but all kids, sir.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Senator Reed [presiding]. On behalf of Chairman McCain, 
Senator Kaine, please.
    Senator Kaine. Thank you, Mr. Chair, and thanks to the 
witnesses.
    This is, obviously, a very serious hearing, important to 
have it. I am the father of a marine. I employ a lot of marines 
in my office. My State is a State where every marine officer is 
trained, every marine security guard is trained, a lot of other 
marines are trained and serve honorably. I think I just can say 
on behalf of an awful lot of Virginians, there was a moment 
when the story broke that a lot of people's hearts sunk. A lot 
of people's stomachs were turned.
    This is absolutely critical to get right. You are 
completely aware of the work of this committee under the 
leadership of Senators Gillibrand, McCaskill, and others to 
tackle sexual assault in the military. It is still very much an 
open proposition on this committee because the question about 
whether sexual assault or other crimes should be treated within 
the Uniform Code of Military Justice or separately is something 
that we have resolved for now to try within the chain of 
command, but we are testing the evidence. We are looking at the 
data to determine if that was right or not. Many of us, if we 
conclude that we are not getting the results that we want, even 
those of us who have supported chain of command in the past, 
may conclude that it is just not sufficient.
    It would be tragic for the Marine Corps if that decision 
were to be made because of a belief that the Marine Corps' bad 
example would cause us to make that decision for all branches 
or the Marine Corps' bad example would cause us to make a 
decision that would be with respect to one branch of the 
service and not the others. So that is the weight of this 
matter in a body that is still really assessing whether the 
military, the Marine Corps, but the other branches have to 
tools that they need to tackle this problem.
    The Marine Corps does a great job of setting people aside 
who do not meet physical fitness standards. The Marine Corps 
has done a very intense amount of work to get into the 
redefinition of military MOSs [Military Occupational Specialty 
Codes] to provide gender-neutral standards that people need to 
meet to serve in MOSs. If the Marine Corps attacks this problem 
with the same degree of attention and passion that they attack 
an issue like physical standards, then you are going to solve 
it.
    But I think I speak for everybody up here out of a belief 
that we just have not seen that. We just have not seen that 
level.
    General, I want to ask you something. I thought your 
opening statement was very good, but I did have one question 
about it. Could you get your written statement--because we do 
not have copies of it here--and just read the first couple 
sentences of it again to me? Because I have one question about 
what you said.
    General Neller. The beginning, sir?
    Senator Kaine. Yes, just right at the very beginning.
    General Neller. Normally I appear before this committee to 
tell you about the extraordinary things your marines are doing 
at home and around the globe. But today is different. I am here 
today to discuss the details of some truly disturbing and 
unacceptable actions that have allegedly been committed on 
social media.
    Senator Kaine. Stop right there. ``That have allegedly been 
committed on social media.'' Are we talking about allegations 
here or are we talking about something that has happened? I 
mean, it might be an allegation as to who was involved, but 
this is not just an allegation about something that happened on 
social media. This is a fact. Is that not correct?
    Senator Reed. Senator, we are going to go into closed 
session. That might be a question that is most appropriate for 
a closed session.
    Senator Kaine. But I just think it is important to really 
make this clear. We are not talking about any individual in 
this hearing, and we should not for the reason that you stated. 
But if in the public hearing, this is described as alleged 
behavior, that there were allegations of something on social 
media, I do not think we are treating it with the seriousness 
we need to. This is not allegations about social media. This 
stuff happened. The General's testimony that Marines United is 
not unique and Senator Donnelly's description of Marines United 
2.0--I just think it is important that we not leave confusion 
with the public that we are here just talking about some 
allegations of something on social media. This happened. Now, 
who was involved--we are not going to get into that in an open 
session. But I would just put that to your attention going 
forward because we are talking about more than just allegations 
here.
    Secretary Stackley, let me just ask you in closing. I have 
a hard time believing that this massive sharing of information 
about women in the Marines would just be limited to this 
branch. Talk to me about investigations into whether this is 
also going on in the other branches of the military.
    Mr. Stackley. I cannot speak specifically for the other 
branches, but in the closed session, what I would recommend we 
discuss is some of the information that NCIS is arriving at 
through their tip line and the number of websites that indicate 
similar activity on other websites. That is very important.
    Senator Kaine. Then let me just ask it this way. Do you 
believe this activity is limited just to the Marine Corps?
    Mr. Stackley. No, sir.
    Senator Kaine. Thank you.
    Senator Reed. On behalf of Chairman McCain, Senator Tillis.
    Mr. Stackley. But I do not want to let it stop right there. 
This is at the top of Secretary Mattis' priority list working 
across the service departments to get at this issue. This is 
not being managed as an isolated issue for the Marine Corps as 
regards the Department of Defense. We recognize vulnerabilities 
here and we need to prosecute those.
    Senator Reed. Senator Tillis, please.
    Senator Tillis. Thank you, Mr. Chair. I am going to try and 
be brief so that we can get to the closed session.
    But I did want to get a clarification on the Marines 
United, really the structure of what we are talking about here 
because I think it is important and we can get into numbers 
later. But we are talking about 20,000 or 30,000 marines 
involved in a social media network, much of which is not the 
subject of the actions that we need to get to the bottom of.
    Can you give me some rough idea of the sub-page where the 
illicit activities were occurring, what that is as a percentage 
of the total people engaged in what would otherwise be positive 
social media interaction?
    General Neller. We believe there are about 30,000 total 
members of the page. How many Active, how many former, how many 
Reserve, how many other services----
    Senator Tillis. But in that page----
    General Neller. But in the link to take you to the separate 
drive, I have been told that the numbers were about 500.
    Senator Tillis. That is the important point because I think 
a lot of people think that there are some 30,000 marines 
engaged in this activity. The number is whatever it is, but it 
is a subset and what we think is a minor subset of the total 
page. I think that is very important.
    General Neller. I would understand and appreciate your 
comment, Senator, but it does not matter if there is one.
    Senator Tillis. I get it.
    Now I want to get to the next. For those who are in the 
subset and involved in these activities, what is the maximum 
penalty and discipline that they can receive if they are found 
to have been engaged at any level in that sub-site? Can they be 
court martialed? Can they be imprisoned? Can they be fined? In 
other words, what discipline are these folks subject to right 
now based on the current rules?
    General Neller. I think that would depend on what their 
level of involvement was and what they were doing.
    Senator Tillis. Let us say for the worst of the worst, 
whatever that may be, just hypothetical. For the worst of the 
worst, what potential penalty could they receive from this?
    Mr. Stackley. They could be court martialed, sir.
    Senator Tillis. What about a veteran, somebody who is no 
longer in Active service that is also engaged in this? I am 
assuming just based on the numbers of the Sergeant Major, there 
are going to be some of those involved. What consequence could 
they possibly suffer?
    General Neller. I think it depends on the State. Certain 
States have certain laws about this, and there are certain 
provisions about what is consent with the use of a picture.
    Senator Tillis. I would like to find out--you do not have 
to answer the question, but I want to look at other things that 
we need to do here to make this a very, very painful exercise 
for somebody caught guilty of doing this. As a member of the 
Veterans Committee, if there is something that we could do to 
disallow their benefits for bad behavior after they are 
discharged, those are the sorts of things that we have to do. A 
part of what you need to do is change the culture, and I 
believe that you will, General Neller. I think that we need to 
work on that, but we also need to make it a very frightening 
proposition for people going forward to be captured into this 
sort of activity.
    So I would like to get people to report back to me as a 
member of the Veterans Committee, as the chair of the Personnel 
Subcommittee, what more do we need to do to make this a very 
frightening proposition for somebody to get tempted into doing 
going forward so that you do not have to focus on these sorts 
of things. I want you to train marines to be able to be safe 
and lethal on the battlefield, not doing these sorts of things. 
I think we need to work to make it very clear that this is 
going to produce dire consequences for people stupid enough to 
do these kind of things going forward.
    Thank you, Mr. Chair.
    Chairman McCain [presiding]. Senator King?
    Senator King. Thank you, Mr. Chairman.
    I have gone from anger and disappointment to really 
sadness. This is a sad day for the Marine Corps and for our 
Armed Services.
    What bothers me, General Neller, is that I am convinced 
that all of us human beings have the capacity to be good or 
evil. How that comes out in any given situation, particularly 
in a group situation, depends almost entirely on how we are 
led.
    One of the things that bothers me is there was a quote in 
the press last week from the reporter and the former marine who 
really broke this story that not once on this website or on 
Marines United 2.0 did he see anybody say this is not what we 
are going to do. This is wrong. This is improper. This is 
disrespectful. Not once.
    That speaks to me of a culture that goes all the way down. 
You can have proclamations and issue letters and everything 
else, but if you have got lower ranking officers and non-
commissioned officers who are winking and laughing and they 
deliver the statement with a little grin, that undermines the 
whole thing. This is an indication to me of a serious cultural 
problem that goes beyond the specifics of orders. Do you 
understand what I am suggesting?
    General Neller. Senator, I understand perfectly what you 
are suggesting, and I agree. You know, being a bystander for 
any sort of an offense is something that we struggle with. I 
was told once by a senior officer that the Marine Corps is 
built on discipline and it is a rock. It is the foundation of 
our house. Every time you walk by something you know is wrong, 
it is the equivalent of taking a hammer and hitting that rock 
and putting a chip in it. If enough people walk by, pretty soon 
that thing is going to crack. So we may be at that point.
    I think marines in their mind--they somehow separate what 
they do during operational things, what they do in training, 
and what they do when they are not out there actively engaged. 
They think that the social media, the Net gives them anonymity 
to do this type of thing. They are ignorant as to the impact. 
That is what I have got to make everybody understand. No, it 
does not work that way.
    But this is your Marine Corps and----
    Senator King. Beyond this posting and being dumb about what 
they put online is the underlying--these guys apparently did 
not feel that they were doing anything wrong. They were on this 
website with 30,000 people on it, and they were posting it and 
nobody said, this is not appropriate or, gee, fellows, do you 
think this is a good idea That indicates to me that they felt 
empowered or enabled to do this.
    So it is really not a question of issuing orders. It is 
issuing orders that are credible that go all the way down the 
line in terms of not only saying the right thing but meaning it 
and conveying it.
    General Neller. Mr. Brennan, the individual that broke the 
story--he said it. I think we are finding and we are going to 
find that there are more that are going to come out and say 
what should have been said before. You know, there are a number 
of people out there that have the ear of whatever this group 
is.
    Senator King. By the way, you know that they are mocking 
you and the leadership----
    General Neller. I understand that.
    Senator King.--on this MU [Marines United] 2.0 and they are 
saying, come and get us, NCIS. They are continuing to post 
pictures as recently as this past weekend. I mean, they are not 
getting the word here.
    General Neller. Well, then we will have to get the word to 
them.
    Senator King. Let me just follow up with one quick question 
to what Mr. Tillis asked, and perhaps this is for the closed 
session. I think one of the real problems here is what is the 
jurisdiction, what is the accountability for a former marine. 
Under the military code, there are consequences for people who 
are in the Marines now, but if they are out--again, one of the 
things I have read is a guy posted his discharge papers and 
said, try to come and get me, NCIS. So that is a separate 
question.
    Mr. Stackley, can you respond in open session on that, or 
is this going to be a matter of State law?
    Mr. Stackley. Today it is a matter of State law. The first 
thing I tried to dive into is what is legal versus what is not 
legal, and then what is acceptable versus what is not 
acceptable. There are a number of behaviors here that are 
absolutely unacceptable and yet they are legal. Within the 
Services, we have the ability to draw that line in terms of 
something that is not acceptable, we are going to prosecute. 
Outside of the Service, where it is legal and unacceptable, we 
are limited in our ability to prosecute. So I welcome Senator 
Sullivan's comments--or I am sorry--Senator Tillis' comments 
regarding added authorities that we might want to look into 
that give us the ability to go outside of uniformed services 
for everybody to understand, you served in our country, you 
left the uniform behind, you remain accountable to the Code 
that we hold those still in uniform to behave to.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Graham?
    Senator Graham. Thank you.
    Did someone actually put their discharge online and say, 
come get me? Did they actually do that? Who is that person? Do 
we know their name?
    Senator King. I will give you the citation.
    Senator Graham. Well, let us make them famous right here. 
What is their name? We will get it later. We will publicly let 
the world know who this person is.
    The website--I am a little confused now. I am not the best 
person to tell you about the Internet. That is for darned sure. 
But the 30,000 people who are viewing this--were most of them 
doing bad things, or were they just talking as marines, Mr. 
Secretary?
    Mr. Stackley. The numbers that we are looking at right now 
is the majority of them were not involved in this activity.
    Senator Graham. So the posting of photos, you know, 
somebody took a photo of a young female marine--how many of the 
30,000 went to that part of it?
    Mr. Stackley. The number that we are carrying is about 500, 
but the investigation remains ongoing.
    Senator Graham. I am agreeing with the General. One is too 
many. But I am just trying to get my head around it. What was 
the purpose of this website?
    Mr. Stackley. Marines United was initiated 5 or 6 years ago 
with good purposes in mind, and that was to support marines who 
were suffering from PTSD [post-traumatic stress disorder] and 
coming out of combat action.
    Senator Graham. So these websites started with a good 
purpose and some people have hijacked it basically. Is that 
right?
    Mr. Stackley. Yes, sir.
    Senator Graham. Sergeant Major, you've got a 14-year-old 
daughter.
    Sergeant Major Green. Yes, sir.
    Senator Graham. What would you tell someone who has a 14-
year-old daughter that does not know as much about the Marines 
as you do about whether that daughter should join the Marines?
    Sergeant Major Green. First of all, sir, I am ashamed of 
the actions of this website. We recruit marines, as I said 
before, 30,000 a year. I can assure that parent, mother or 
father, that the chain of command in the Marine Corps, the 
leadership--we are going to do everything we can----
    Senator Graham. Would you tell those parents to send their 
daughter to the Marines given what we know today?
    Sergeant Major Green. Yes, sir. I can assure them that 
myself, the Commandant, and the leadership--we are going to 
pave a way that is respectful----
    Senator Graham. What would you say to that young woman, 
General, who is thinking about joining the Marines?
    General Neller. I could understand why they would have some 
questions.
    Senator Graham. Do you not think this has kind of stepped 
all over recruiting of young women?
    General Neller. Senator, we are talking to our recruiting 
folks because the irony of all this is we are trying to 
increase the number of women in the Marine Corps.
    Senator Graham. Right.
    General Neller. This certainly, I would say, is not 
helpful.
    Senator Graham. I would say this is devastatingly bad.
    Would you agree with me that this is one of the darkest 
chapters in the history of the Marine Corps, even though there 
are maybe 500 people involved?
    General Neller. We have not distinguished ourselves in this 
affair.
    Senator Graham. Having said that, you are the finest 
fighting force in the history of the world, pound for pound, 
the United States Marine Corps. You have an honored tradition, 
but every organization has dark moments.
    Do you agree with me this is one of the darkest moments and 
it needs to be fixed?
    General Neller. Yes, Senator.
    Senator Graham. There are two ways to get people to do 
better. Appeal to their better nature. Sergeant Major Green, do 
you agree with that?
    Sergeant Major Green. Absolutely, sir.
    Senator Graham. And scare the hell out of them.
    Sergeant Major Green. Yes, sir.
    Senator Graham. General, do you believe that people are 
sufficiently afraid of degrading their fellow female marines as 
of this moment?
    General Neller. Based on their actions, no. No, Senator.
    Senator Graham. Will you promise me that there will be a 
lot of fear coming?
    General Neller. We will do all that we can to hold people 
accountable.
    Senator Graham. The Marine hymn says, first to fight for 
right and freedom and to keep our honor clean. Do you believe 
you need to fight to keep that honor clean?
    General Neller. Absolutely, Senator. We have to.
    Senator Graham. Are you committed to winning that fight?
    General Neller. I am.
    Senator Graham. Thank you.
    Chairman McCain. Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    I realize that so much of this kind of behavior has to do 
with some attitudes and culture, and it is very difficult, 
General Neller, to change the culture. So I am wondering 
whether one of the ways that we can deal with this issue is to 
provide some deterrence. Would you agree that one of the ways 
that we could deter this kind of behavior is through court 
martial where appropriate?
    General Neller. Senator, I believe deterrence is part of 
this, and there has got to be accountability, whether it be a 
court martial or other processes. Yes.
    Senator Hirono. In terms of changing the culture, how would 
you begin to even change the culture? This has been 
longstanding not just in the Marines but issues that involve 
all of our Services. So how do you even begin to change the 
culture when, for example, you have a Commander in Chief who 
exhibits certain attitudes toward women? How do you change the 
culture?
    General Neller. The only way I know how we have done this 
in the past when we have dealt with other issues--I mean, there 
are always going to be those that are going to not be able to 
adjust, and that will be addressed. But I believe that most 
marines join the Marine Corps to improve themselves, that they 
are good and decent people, and they have got to understand 
that there are certain behaviors that we expect and that we 
recognize positively and there are others that we do not. Part 
of that is having a discussion. It has got to start at the 
beginning when they first see their recruiter, and it has to be 
modeled throughout the organization. There are, obviously, 
those either who are not modeling the culture that we want or 
they are even condoning it.
    So as the Sergeant Major said, we are going to go back, 
take a look where it starts. For all marines, it starts at 
recruit training or it starts at officer candidate school. We 
are going to look at how we talk about this, make sure they 
understand it. But as you say, at some point there has to be 
deterrence because--I would like to say we would be 100 percent 
successful, but we probably will not. So for those that are not 
able to comply, there has to be deterrence.
    Senator Hirono. So I am assuming that you will take every 
step necessary to identify whether certain codes of behavior 
were violated and then to pursue court martials, that you will 
do that very, very strenuously.
    General Neller. Yes, Senator.
    Senator Hirono. I would say another aspect of all of this 
is that what kind of message are you giving to the current 
female marines? I do not know how many women there are in the 
Marines, but have you brought everyone together in a way that 
the message gets to not just individuals who are undergoing 
training or during the recruitment process, but the current 
situation with all of your women marines? Have you had any kind 
of a gathering of the marines, both male and female, to talk 
about how this is totally unacceptable?
    General Neller. Senator, the only way I can address 185,000 
marines or right today about 184,000--and there are about 
15,000 women marines. About 1,500 of them are officers. 13,500 
are enlisted--is for me to use our own platforms on social 
media to tell them what is going on and what they should expect 
from their leadership.
    Senator Hirono. Excuse me. Yes, that is you. But there are 
also your leaders on the bases. What are they doing to get the 
message across en masse?
    General Neller. We have spoken to all leadership last 
Friday. We issued instructions for them to go out and engage in 
this conversation. I am going to follow that up this week with 
even more direction. I am going down and the Sergeant Major and 
I are going down to Camp Lejeune to directly speak to marines 
in person. But it is going to take some work so that everybody 
gets down to the last marine. So we have a plan to speak both 
personally and using other venues or forums such as this 
hearing today to tell them what is going on and what they 
should expect and what is acceptable and what is not 
acceptable.
    Senator Hirono. So if I were to go to Kaneohe Marine Corps, 
for example, would there be a session that I could attend where 
this situation would be discussed?
    General Neller. There will be or there has been. I do not 
know exactly when commanders have scheduled this, but I can 
find that out for you, Senator, and when you are home and you 
want to participate, I would appreciate that.
    Senator Hirono. I will certainly check into that. Thank you 
very much.
    Chairman McCain. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    General, you and the Sergeant Major have both made it very 
clear that you have been disgusted with this activity. I 
believe you when you say that you want this ended.
    At the same time, I am just wondering when you first heard 
about this and you were working your way through it, did it 
come to mind that this may very well be an outgrowth of the 
discrimination that we have seen in terms of men who may very 
well have thought that we just simply do not think this is the 
place for women in the military?
    General Neller. Senator, we talked about that, and I am 
sure there are going to be people that have that particular 
view. But okay. But I do not see how that gets you from that 
particular view to where you have to take a picture of 
somebody, post it online, and then mock, haze, harass, degrade, 
or even potentially assault them online. I mean, whether that 
is their motivation or not, I do not know. I have heard it 
described as the dark humor of veterans. That is a cop-out. But 
we also know that there are marines that are participating in 
this who never have been shot at in their lives. So they are 
just trying to get credibility. I do not know.
    It really does not matter what their motivation is to me. 
It is the behavior. Whatever made them think that they were 
going to do this or watch it and not report it, that is what we 
have got to get after.
    Senator Rounds. The reality is that we cannot go to war 
without women anymore, can we?
    General Neller. No, Senator, we cannot.
    Senator Rounds. There are 500 individuals that we believe 
have participated in the inappropriate activity on this 
particular website that has been brought to light. Do we know 
how many of the 500 would perhaps have been former members 
versus the number that are current members? Do we have the 
numbers there yet?
    General Neller. No, Senator, we do not. NCIS in the closed 
session--they may have more because they just got access to 
some more information, but right now we do not know.
    Sergeant Major Green. Senator Rounds, sir, if I can say 
something about----
    Senator Rounds. Yes, sir.
    Sergeant Green.--that you just talked about.
    One of the worst parts, besides the victim or the survivor, 
about this whole ordeal, if there are men in the Marine Corps 
that have served in the uniform or that feel that women are not 
supposed to be in the Marine Corps, they have absolutely 
captured a voice with this social media venue and denigrated 
women that are serving, that may want to serve, and those that 
have served. If we do not get this right, they can absolutely 
drive women out of the Marine Corps and give women a reason not 
to want to serve with us. That is why we must get at this 
because if there are men that exist in the Marine Corps outside 
that do not want women in the Marine Corps, this is absolutely 
a mouthpiece for them, and we would not allow them to have that 
voice.
    Senator Rounds. So in order to address specifically the 
actions that have occurred here, we have to make certain that 
we have within your ability to discipline clear and appropriate 
guidelines within the Code that allow you to address the 
specific actions for people that are still in the military, but 
then we have also got to find a way to address the actions of 
those who were formerly in the military and who are no longer a 
part of it but who are still displaying this type of activity. 
Is that a fair statement? We have got to be able to break it 
down into those two?
    Sergeant Major Green. Yes, sir, it is.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Heinrich?
    Senator Heinrich. General Neller, would you agree that 
taking down a site is not going to solve this problem?
    General Neller. I would agree with that, Senator. It is 
only a symptom.
    Senator Heinrich. I think it is really important that we 
recognize that this is not a digital problem. It is not a 
social media problem. It is not Facebook's problem, that that 
is a whack-a-mole approach. We have tried it in the past. It 
does not work. This is a conduct problem. It is a criminal 
problem, and unfortunately it is a cultural problem.
    You said in your opening testimony that it is your 
inclination to resist that description of cultural, but I think 
it is important to recognize that until we recognize that for 
what it is, this will not change.
    Now, this pattern of social media groups posting pictures 
of female marines without consent--I have seen some pictures, 
screenshots glorifying horrible sexual violence. It has 
happened before. I got an article here from 2014. I will not 
share it with you because I do not want to share the marine's 
name. But she said, ``I was freaked out. I would not even look 
at it at first. I have all of my social media set up so it is 
private. So I was really confused how in the world they got a 
photo of me. I was terrified of the comments I was going to be 
receiving. Then subsequent comments were not only overtly 
sexual, but some threatened sexual violence.''
    So you have asked for the trust of female marines. You have 
asked for the trust of survivors. I just want to ask you given 
that this has happened again and again--it is pervasive in the 
social media environment in particular--what would you say to 
those female marines to demonstrate that Marine Corps 
leadership has earned that trust?
    General Neller. That is why I am asking them to trust me 
because my ability to sit there and say I have earned your 
trust--because we have not gotten after this. I acknowledge 
that. But I cannot get after it if they do not become part of 
the solution. I know that is a big ask because, as you 
rightfully mention, if they are out there within these venues, 
all the haters will be back there attacking them again tenfold. 
I think that is part of the problem. It is the worst part of 
retribution in cyber bullying that if you make a comment, that 
you end up getting shouted down or threatened or all the hate. 
I am sure you deal with that. I know I am going to deal with 
it. I have dealt with it. I am going to certainly deal with it 
after today.
    Senator Heinrich. A big part of that problem--and you 
mentioned this--is anonymity. Are Active Duty marines allowed 
to participate in social media in that space anonymously? Have 
you looked at that issue that maybe the rights of Active Duty 
marines in a social media environment might be different from 
just the general public?
    General Neller. This is where it gets difficult. I would 
ask that we get with the lawyers because I am not an attorney. 
But it becomes an issue of free speech, and as the Secretary 
said, what is criminal and what is not, what is consent to a 
picture and what is not consent to a picture. But there are 
individuals out there that put their name, their unit, and 
there has to be accountability for that. So that is what I am 
asking our women to help us with.
    Senator Heinrich. I would ask you to help us if there are 
specific changes to the UCMJ that you need to be able to 
address these sort of abusive behaviors. If there are specific 
statutory changes for people who have already been discharged, 
we need to know what those potential tools are that we need to 
help you get ahead of this problem.
    Chairman McCain. Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here today.
    This is a sad day for the Marine Corps, and it is a sad day 
for our Armed Forces. All of us on this committee are agreed 
that the conduct at issue here was despicable, that we owe a 
sacred trust to the women and men who join our volunteer 
military and put it all on the line to keep us safe. To find 
themselves abused and victimized by fellow marines is 
completely unacceptable.
    I appreciate your addressing this issue with the 
seriousness that it deserves. My question to each of you is 
twofold. How do we ensure that this never happens again, and 
what needs to happen so that those who violated the rights of 
their fellow marines are held accountable? General?
    General Neller. Senator, to ensure that it does not happen 
again, we have got to change the way we see each other as 
marines. That is not going to be easy, but it has got to be 
done. I do not know how many people we are dealing with here. 
Some of them maybe they are just--whatever their beliefs are or 
they just happen to be piling on or they are just misguided or 
ignorant. But if they are in this organization, they cannot 
participate in this anymore.
    I honestly believe that the leadership out there and 
particularly the sergeant majors and the senior enlisted and 
the NCOs--they are the ones that have their finger on the pulse 
of the organization. I have got great trust in marines. I have 
seen what they can do. I know their spirit. I may be wrong. I 
pray to God I am not. But I do not believe this is indicative 
of the great majority of the marines that wear this uniform. So 
they are going to solve this. I cannot do this myself. The 
Sergeant Major cannot do this. We have got to solve this 
together.
    Now, for those that do not want to be part of that 
solution, then there has got to be accountability. We will work 
our way through this, but there are, as we discussed--we have 
got to clarify for our leadership what their actions can be if 
this behavior is identified and what they can do to hold these 
people accountable. We are looking at a whole number of things 
in addition to what is in the UCMJ. So that is our path 
forward.
    So we have got a training piece. It starts at the 
beginning, but it is really a leadership piece, a discussion 
piece, but then at the end there has to be accountability 
because, as Senator Graham said, there are those--they 
understand what is right and what is wrong, and there are 
others--they understand it, but they may feel like they have to 
do this. Then they are the ones that are going to have to be 
deterred and held accountable.
    Senator Cruz. Sergeant Major?
    Sergeant Major Green. Yes, sir. Sir, we have to build an 
environment. You know, if a marine walked into anyplace, the 
Salvation Army, the Red Cross, and they already have an idea of 
what that organization does, they walk in there and they 
realize that where they are going--the door that they walked 
through--they are not really doing what my thought was when I 
went in or what they advertise, then in real life, if they are 
doing something illegal, if they are doing something to 
denigrate and disrespect people, I am going to report it.
    We have to build that environment in our Marine Corps where 
they go in the social media world and to really understand the 
meaning of friend because when you hit the button and you give 
somebody the right as a friend, that is not the same meaning as 
in I meet someone. That is the reality of today in the virtual 
world. Just because you tag somebody as a friend, that does not 
mean you actually know that person, and that is not really your 
friend. Some people just learned that day, see people, tag them 
as a friend, let them in, not understanding in the social media 
world everything on your page you have just given the right to 
because they can screenshot it. They can do what they want, 
take it and do what they want. Understanding the laws that we 
have right now today that protect an individual--we have to 
explain that to our marines, our leadership, and those that we 
recruit.
    Senator Cruz. Thank you.
    Chairman McCain. Senator Warren?
    Senator Warren. Thank you, Mr. Chairman.
    So we are here today to discuss marines using social media 
to share intimate photographs of female servicemembers and 
veterans without their consent. It seems like every time we 
shut down one of these websites that a new one pops up.
    General Neller, I appreciated your strongly worded message 
last week, but we have already seen that at least one new 
website seems to have appeared in defiance of your guidance. We 
can keep playing digital whack-a-mole, but we will keep losing 
until we have better tools to prosecute those who are 
responsible.
    So I want to go back to a question about the Uniform Code 
of Military Justice, but I want to ask it from a different 
perspective. General Neller, it is my understanding that if the 
original photo was taken consensually, the UCMJ may not allow 
for the strictest penalties under article 120(c) even if it was 
subsequently shared without consent. Is that accurate?
    General Neller. Senator, my understanding is, as the 
Sergeant Major was discussing, if you are on a public facing 
webpage and you post a picture, that in itself can be construed 
as consent, and if someone else takes that picture, that there 
is no criminal action. I am not saying I agree with that, but 
that is an interpretation.
    Senator Warren. So let me ask this question. Many States 
have implemented laws that make so-called revenge pornography a 
criminal offense. Do you believe that we need a change like 
that to the UCMJ?
    General Neller. I think that would be helpful in the 
accountability process. Some of these pictures of these women 
where they were fully clothed--and it is the commentary and all 
that stuff.
    Senator Warren. I understand.
    General Neller. But, yes, I do agree.
    Senator Warren. But are photographs that were taken 
consensually and then someone else posted them or they were 
posted in a different context and then forwarded----
    General Neller. That is correct.
    Senator Warren. I know you are committed to pursuing this, 
but if we are going to shut down this conduct, then you ought 
to have every possible legal tool at your disposal.
    Now, I want to ask you a second question about this. Every 
Marine Corps base maintains a list of places that are off 
limits for servicemembers. In 2013, one of your predecessors, 
General Amos, told Congress that the Marines were examining 
whether you could legally make certain websites off limits in 
the same way. You cannot visit there any more than you can go 
into town and visit these particular places.
    What was the result of that assessment? Do you need 
additional authorities to be able to do that?
    General Neller. Senator, I am not aware--I will take that 
for the record, and maybe my SJA [Staff Judge Advocate] can 
talk to you about that. But I am not aware that we ever, 
because of right of free speech and other things, placed a 
website off limits. On a government computer, we block certain 
websites, but when someone is on their individual device, I am 
not aware that we have said the following websites are off 
limits and to frequent these sites, if we were even able to 
determine if the marine had, that you would be in violation of 
a lawful order.
    Senator Warren. I think this may be something that may be 
worth exploring again so that you have the maximum number of 
tools available to you to stop this behavior.
    I have one more that I want to ask, and that is, General 
Neller, you are not the first Commandant to attempt to address 
this issue, and in all due respect, it does not seem to be 
working. I think it is because the social media scandals are 
symptoms of a much larger problem. It happens in the barracks 
and it happens in the field, and it starts as early as basic 
training. Are you willing to reconsider the role that Marine 
recruit training plays in this and reevaluating the Marine 
Corps' policy of gender segregation at basic training?
    General Neller. Senator, we are taking a very long look at 
how we do recruit training right now. I would not couch our 
recruit training as segregated, and I would, at this time, 
invite you down to see how we do what we do.
    Senator Warren. We are not separating men and women anymore 
in the Marines?
    General Neller. All recruits in all the Services live 
separately because they live in an open squad base. Our 
training is done by platoons, men and women in platoons. A good 
portion of their training, as we do it now at Parris Island 
where all our women get trained, they do things with male 
recruits, the swim tank, the rifle range, the crucible, the 
field training, even now their final fitness exams. So to say 
that we are segregated I do not believe is a fair statement, 
but we do do it differently than everybody else.
    That said, we are looking----
    Senator Warren. Can I just clarify, General? Because I just 
want to make sure I understand, and I am past my time here, but 
I want to make sure I understand. Are you saying no activities 
are segregated other than sleeping, or are you saying that some 
activities are segregated and some are not?
    General Neller. Some are and some are not.
    Senator Warren. The question I am asking is whether you 
want to take another look at that.
    General Neller. We are looking at the entire way that we do 
recruit training, from how we educate and train our drill 
instructors to how we do the entire program of instruction for 
men and women.
    Senator Warren. Thank you, General.
    Servicemembers who disrespect their fellow servicemembers 
dishonor the Service and dishonor our Nation. We have got to 
put an end to this conduct so none of us is here again. Thank 
you.
    Chairman McCain. Senator McCaskill?
    Senator McCaskill. General, I think there are two issues I 
want to talk about during my brief time here.
    The first one is I want to make sure that you all respond 
to the point that has been made previously, but the idea that 
this had to be discovered by a journalist and not discovered by 
you. There is a fundamental flaw in oversight in terms of good 
order and discipline and conduct unbecoming if we are not 
ferreting out this kind of ugly, ugly representation of the 
Marine ethos without journalists having to do it.
    So I will look forward to a plan. I am going to ask my 
colleagues to join me in a letter to Secretary Mattis because I 
think this is something that needs to be done in all the 
Services. What are you all doing internally to monitor online 
conduct that is related to Active servicemembers, and how are 
you addressing that in terms of not just the vitriol that was 
on these sites, but also cyber bullying that could be impacting 
morale? I want to get to the bottom of that.
    The second one is accountability. Now, I am going to tell 
you a brief story, and that is when I was a prosecutor in 
Kansas City, I wanted to do more on domestic violence. The 
detectives came to me and they said, well, Senator--I was not a 
Senator then--prosecutor, you need to understand that many 
times the victim does not want to cooperate, and if we do not 
have a victim, we cannot prosecute. I said, well, let us shut 
down the homicide unit then because we do not have victims in 
homicide and we figure out a way to make the case.
    I bring that up because for 134 and 133, conduct unbecoming 
and good order and discipline, it does not matter if the 
victims cooperate. If you can prove that this was an Active 
marine and they went online and said these things and referred 
to fellow marines in this manner, then I mean, the prosecutor 
in me tells me you have got a prima facie case. I know you 
cannot comment on that because of undue influence, but I just 
want to point out that it is very important to understand that 
accountability is possible here even if the survivors are not 
interested in coming forward to be, quote/unquote, part of the 
case. Could you acknowledge that, General?
    General Neller. Senator, I understand your point. Again, no 
excuse, but it would require us to be out there--I mean, we 
surveil our network for people that are passing information. We 
look for malware. We do a lot of things. That is why Major 
General Reynolds behind me--she is our MARFORCYBER [United 
States Marine Corps Forces Cyber] commander. Our ability to 
look at all these potential websites where there is this kind 
of nefarious, disgusting behavior--I mean, it goes to the point 
where there is a certain--where is the right of the marine to 
express free speech and where does it go into an illegal act.
    Senator McCaskill. Well, I get that.
    General Neller. And so our ability to monitor that. So we 
are having that discussion now, and I take your point.
    Senator McCaskill. I think it is really important, and we 
can talk about this in closed session more. It is not something 
that has to be in closed session, but NCIS is the one that I 
want to talk to about it.
    We have detectives all over this Nation that are posing as 
bad guys online to catch horrible people that are trafficking 
children and doing other illegal activities. It would not be 
hard for someone to pose as an Active marine looking for a spot 
where they can see what these guys obviously were interested in 
looking at. This is something that you could do on a random 
basis. Once it is known that that is out there, it is amazing 
the deterrent effect that that would have in terms of this 
being seen as acceptable.
    I also want to say that I think this accountability piece--
you know, there are crimes you can deter and there are crimes 
you cannot deter. I guarantee you, you throw some marines out 
of the Marine Corps, you say you are no longer welcome here and 
you are dishonorably discharged for this behavior, you do that 
in a high profile way--and obviously, I do not want you to 
comment because I do not want to get into undue influence 
territory. But let me just say for the record if you go after 
the Active marines that you have evidence on and if they are 
dishonorably discharged, that will begin to send a signal that 
many of us up here are desperate for you to send.
    Then I would close, Mr. Chairman, just by pointing out that 
there has been some progress made. The 2014 SAPRO [Sexual 
Assault Prevention and Response Office] survey was cited by 
Senator Gillibrand. I do want to say that in 2015--I want to 
say this for all the survivors out there--77 percent of the 
survivors that were surveyed in 2015 recommended that other 
survivors come forward. So that is a positive that we are 
having that increase in numbers of survivors advising other 
survivors to come forward. I wanted to get that publicly on the 
record today so survivors out there in this incident hear that 
those who are coming forward who now have services and support 
available to them can expect a more positive experience as we 
all try to hold these jerks accountable. And ``jerk'' is a kind 
word.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator McCaskill has her usual reticence. 
I thank you for your passion. I thank you for your involvement 
in this issue for many years. Many of us do appreciate your 
commitment, Senator McCaskill. Thank you.
    Senator Peters?
    Senator Peters. Thank you, Mr. Chairman.
    I have to agree with my colleagues up here that today is, 
indeed, a very sad day for the Marine Corps and for our 
Services. Without question, disgusting, absolutely 
reprehensible behavior that needs to be aggressively dealt 
with, and it has to be dealt with immediately. I know, General 
Neller, you know the entire country is watching today. Although 
I appreciate your strong words, I know that you know that we 
also need strong action, that words will not be enough. We are 
going to need to immediately take action. In my experience with 
you, I know that that is the type of leader you are, and we 
will be working with you in any way that we can to be helpful 
to you.
    My colleagues have made some very important points 
regarding the culture in the Marine Corps. I want to build on 
that and specifically talk a little bit about recruit training, 
which has been brought up, particularly though at Parris 
Island. As all of the witnesses here know, Marine Corps 
recruits from the eastern half of the United States, including 
my State of Michigan, as well as all female recruits attend 
basic training at Parris Island in South Carolina. Without 
question, basic training is the place where the Marine Corps 
instills its core values. A marine is always a marine. So those 
are values that stay with that individual for their entire 
life.
    Last year, the Marine Corps completed three command-level 
investigations into hazing and abuse of recruits and even 
hazing among drill instructors at Parris Island. Allegations 
include the targeted hazing of recruits for their ethnic 
background or religious beliefs, including a Muslim recruit who 
was placed in an industrial clothes dryer multiple times.
    A separate Muslim recruit from my State of Michigan died at 
Parris Island by jumping over a stairwell after enduring abuse 
by the marines entrusted to train him. The command 
investigation into the recruit's death found that, quote, 
maltreatment by his drill instructor team, leadership failures 
at multiple levels of command, and administrative and process 
failures contributed to his death. The investigation also found 
a senior drill instructor at Parris Island taught subordinate 
drill instructors to, quote, hate recruits--end of quote--in 
order to train them.
    I am very concerned that the poor practices in the training 
of Marine recruits at Parris Island as a result of some of 
these instances may have contributed to some of the inexcusable 
behavior that we are discussing today. As you know, General 
Neller, respect is a fundamental core value, respect for every 
aspect of that individual.
    So I know you have referenced a comprehensive review of 
recruit training, but could you let the panel know what will 
the scope of this review be, how it will be conducted, and has 
it already resulted in some corrective actions in recruit 
training at Parris Island?
    General Neller. Well, Senator, after the investigation, we 
sat down and went through and looked at what was going on at 
recruit training. What we found was that we had rules and 
regulations, but there was a failure in leadership and in 
supervision. So we have done a number of things to clarify what 
the rules were, what they were not. We have increased the 
supervision at the recruit depots and by increasing the numbers 
of officers. We have gone back to look at how we train our 
drill instructors.
    There were some practices that had crept in over time that 
were not in compliance with the orders. There were a number of 
officers, to include a battalion and regimental commander, who 
were relieved due to their inability to maintain good order and 
discipline and follow the rules and regulations.
    The individuals that you mentioned, plus others, are in the 
process of going through the Military Justice system. I will 
leave it at that. You probably will have read or hear about 
where they are within that process in the next few weeks.
    So with this, I hate to say that this provided an 
opportunity, but again, to look back at, okay, so how does 
this--this just does not happen here. It starts somewhere. And 
so we are in the process, and we are already in the process of 
going back and talking to drill instructors about what it is to 
lead, what it is to coach, teach, mentor. We have got a number 
of things we are looking at, and we have already implemented as 
far as changing the attitude. The commanding generals that are 
there at both San Diego and Parris Island are all in with this. 
They understand what we are trying to do. I think they are 
making progress. But we have to prove that we have changed.
    So I agree with you that part of this--part of what has to 
change at the recruit training and in officer candidate school 
is a discussion of how we view each other as marines, whatever 
our race, our gender, whatever, because that is where you learn 
what right looks like. And so we are in the middle of that. I 
believe we have a plan. It is not going to change overnight, 
but it is going to change. I am confident of that, and we will 
correct this. If there are others that do not want to follow 
the rules, they will be held accountable.
    So I believe we are headed in the right direction there. 
But, again, you want to see results. I am responsible to give 
you those results, and it is not going to happen overnight. 
But, again, I would ask and invite you to come down and see 
what we do at Parris Island or San Diego and see some of your 
Michigan marines because I believe we are on the right path.
    Senator Peters. Thank you, General.
    Chairman McCain. Secretary Stackley, thank you for your 
appearance today and thank you for your input as we recognize 
the civilian stewardship of our military.
    Sergeant Major Green, your leadership is probably now more 
necessary than most times in the past as we repair the damage 
that has been done and to put into proper perspective that this 
is a terrible thing. From time to time, these things have 
happened, but at the same time, we recognize the United States 
Marine Corps and their service and sacrifice that is going on 
today as we speak, and we do not want to ever diminish that 
service and sacrifice that they have made.
    General Neller, you came before this committee with candor. 
We have now, I believe, embarked, thanks to your testimony and 
your commitment, on an effort that may take a long time. But I 
think this hearing was an important beginning to fixing a 
problem that apparently has been out there for some period of 
time. I believe you are facing it head on.
    The one request I have from this committee is that you keep 
us informed not only of the progress that you make but in the 
challenges that you face because we are looking at a new form 
of communication amongst our citizens, and it is called the 
Internet. As I mentioned in my opening statement, it has 
provided knowledge and information in a way that has never been 
available before. There is also a dark side, and we are looking 
at the dark side today.
    We are going to look forward to your and Secretary 
Stackley's recommendations if it is necessary to pass 
additional legislation. We cherish the right of all citizens to 
have a right of privacy, but I think when we are seeing this 
kind of outrageous and offensive behavior, then we need to 
provide some protection to our fellow citizens and those who 
have served our country with honor because when we do something 
like this, we harm the reputation of all. A few have done that 
and it is our obligation to try to see that this kind of thing 
is not repeated.
    Senator Reed?
    Senator Reed. Mr. Chairman, I simply want to concur and 
thank you for holding this hearing. It has been very important, 
and it will be a foundation for further work by all the 
Military Services, not just the Marine Corps, all the Military 
Services, and this Congress to get it right.
    Chairman McCain. We will meet in 10 minutes in Russell 220 
to continue this conversation in a classified setting. Thank 
you.
    [Whereupon, at 1:23 p.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]

                               __________
             Questions Submitted by Senator James M. Inhofe
                             marines united
    1. Senator Inhofe. General Neller, under the UCMJ, what actions do 
you see taken against those directly involved in the sharing of these 
photos and comments?
    General Neller. The Acting Secretary of the Navy signed ALNAV [All 
Navy] 021-17 on 18 April, which changed the U.S. Navy Regulations to 
include article 1168, prohibiting the non-consensual distribution of 
intimate images. This article makes punishable under the UCMJ conduct 
that might not otherwise be criminalized under other portions of the 
Code. In addition, on 9 May, I issued MARADMIN [Marine Administrative 
Message] 223/17, modifying the Marine Corps Separations and Retirement 
Manual to make administrative separation processing mandatory in the 
cases of marines determined to have wrongfully distributed an intimate 
image of another person. These substantial changes are being undertaken 
in addition to the many other legal tools available to implement 
discipline under the UCMJ in such cases.

    2. Senator Inhofe. General Neller, what about those indirectly 
involved, such as those that are simply members of the group?
    General Neller. On 14 March, I released ALMAR [All Marine Corps] 
008/17 which provides guidance for personnel who, in their personal 
capacity, desire to make unofficial posts on the internet regarding 
Marine Corps-related topics and guidance for marines concerning 
unofficial online activity that has an adverse effect on good order and 
discipline within, or brings discredit upon, the Armed Forces. 
Additionally, I published a White Letter on 21 March, ``Social Media 
Guidance-Mandatory Counseling Requirement,'' which mandated, within 30 
days, every Active Duty and Reserve Marine, officer and enlisted, 
receive a formal counseling confirming that they read and understand 
the updated social media guidance outlined in a message released to all 
marines on 14 March. Per article 1137 of the U.S. Navy Regulations, 
``[p]ersons in the naval service shall report as soon as possible to 
superior authority all offenses under the [UCMJ] which come under their 
observation, except when such persons are themselves already criminally 
involved in such offenses at the time such offenses first come under 
their observation.''

    3. Senator Inhofe. General Neller, are the Department of Defense 
and the other services working with you to identify other similar 
sites, possible involvement of their personnel, and how to eliminate 
this culture from the entire Department of Defense?
    General Neller did not respond in time for printing. When received, 
answer will be retained in committee files.

    4. Senator Inhofe. General Neller, do you need additional support 
from Congress such as additional authorities or legislation with 
regards to identifying additional sites, determining identities of 
those involved, holding those involved accountable, being able identify 
similar sites in the future, etc.?
    General Neller did not respond in time for printing. When received, 
answer will be retained in committee files.

    5. Senator Inhofe. General Neller, what is the Marine Corps doing 
to support all the victims, civilian and military, and their families?
    General Neller did not respond in time for printing. When received, 
answer will be retained in committee files.

    6. Senator Inhofe. General Neller, what can Congress and 
specifically this committee do to assist you in supporting the victims 
and their families?
    General Neller did not respond in time for printing. When received, 
answer will be retained in committee files.

    7. Senator Inhofe. General Neller, you have also asked for the 
victims to come forward, [QUOTE] ``I'm going to ask them to trust us. I 
understand why that might be a bit of a reach for them right now. But I 
can't fix this . . . The only way there is going to be accountability 
in this is somebody comes forward and tells us what happened to them.'' 
Do you believe the victims trust Marine Corps leadership and, if not, 
how do you regain their trust?
    General Neller did not respond in time for printing. When received, 
answer will be retained in committee files.

    8. Senator Inhofe. Mr. Traver, is Facebook assisting in the 
investigation?
    Mr. Traver. Yes, NCIS has engaged with the Vice President of 
Security for Facebook and continues to work with Facebook in support of 
this investigation. Facebook has agreed to disclose account records in 
accordance with its terms of service as detailed in its operational 
guidelines for law enforcement officers seeking records. To date, 
Facebook has provided assistance to NCIS with data preservation and 
retention and availability.

    9. Senator Inhofe. Mr. Traver, what capabilities does NCIS have 
regarding the cyber portion of the investigation?
    Mr. Traver. The NCIS Cyber Operations Directorate employs an 
assortment of investigative tools to support investigations. In regards 
to Marines United and other similar social media platforms, NCIS Cyber 
Directorate uses many social media investigative tools, to include web-
scraping software to collect and review data, workstations to review 
collected data, workstations to run social media tools to identify 
accounts and groups, and a server with a database to store the 
collected data. The database works to identify duplicates and potential 
useful meta data. Personnel supporting the cyber capabilities are 
special agents and computer specialists with specialized training and 
experience assigned to the NCIS Cyber Directorate and NCIS Cyber 
Operations Field Office. As with any criminal investigation, NCIS 
utilizes traditional investigative techniques and methods in 
conjunction with various cyber capabilities to ensure the most 
comprehensive approach to investigative fact-finding.

    10. Senator Inhofe. General Neller, are you looking at policy 
changes, training changes, increased monitoring, . . . all the above?
    General Neller did not respond in time for printing. When received, 
answer will be retained in committee files.
                               __________
                Questions Submitted by Senator Jack Reed
                              legal issues
    11. Senator Reed. Major General Ewers, it is clear that the Marine 
Corps has UCMJ jurisdiction over marines on Active Duty, and as well as 
over retired marines.
    Does the Marine Corps have UCMJ authority over marines who (1) 
committed a criminal act on Active Duty, (2) were discharged before the 
criminal act was discovered, and (3) are still serving in a Reserve 
status, such as the Individual Ready Reserve? What if the marine is no 
longer serving in a Reserve status?
    Major General Ewers. (1) Articles 2 and 3, UCMJ, permit the Marine 
Corps to prosecute current servicemembers and retirees, among others 
specifically enumerated, for an offense committed while on Active Duty 
or, in the case of a reservist, during inactive-duty training (i.e., 
drill). However, in certain circumstances, when a former servicemember, 
not including retirees, separates from the service completely, the 
Marine Corps may no longer retain personal jurisdiction over an alleged 
offender. (2) Discharge may involve a punitive discharge (e.g., bad 
conduct discharge, dishonorable discharge, or dismissal) whereby upon 
execution of the discharge the servicemember is completely separated 
from the service. In other cases, ``discharge'' may simply connote a 
transfer from Active Duty to Reserve status, whereupon the 
servicemember obtains a DD-214 with a characterization of service. 
Often marines have continuing Reserve obligations stemming from their 
initial contract of enlistment such as service in the Individual Ready 
Reserve. These previously-discharged reservists may be subject to 
recall for criminal prosecution of offenses committed while on Active 
Duty. Also, reservists who serve on Active Duty orders for 90 days or 
more, or who are part of a contingency operation, will receive a DD-214 
upon termination of those activation orders. However, as stated above, 
when a former servicemember, not including retirees, separates from the 
service completely, the Marine Corps may no longer retain personal 
jurisdiction over an alleged offender. Exceptions include persons 
discharged from the Armed Forces who are later charged with having 
fraudulently obtained their discharge and those who have deserted from 
the Armed Forces. (3) Article 3(d) specifically states, ``A member of a 
Reserve component who is subject to this chapter is not, by virtue of 
the termination of a period of Active Duty or inactive-duty training, 
relieved from amenability to the jurisdiction of this chapter for an 
offense against this chapter committed during such period of Active 
Duty or Inactive Duty training.'' If the marine is no longer serving in 
a Reserve status and not a retiree or person otherwise enumerated under 
article 2 then the Marine Corps may no longer retain personal 
jurisdiction over an alleged offender.

    12. Senator Reed. Major General Ewers, if a marine receives an 
honorable discharge and is later found to have committed a criminal act 
while on Active Duty, can the Marine Corp reassess the marine's 
character of the marine's service and change the discharge to a lesser 
administrative discharge?
    Major General Ewers. Generally, once a marine receives a valid DD-
214 with an honorable characterization of service no authorities exist 
to permit it from being subsequently revoked or otherwise amended to 
reflect a lower characterization. However, in the case of a 
fraudulently-obtained discharge, as described in article 3(b), each 
person so discharged from the Armed Forces may be subject to trial by 
court-martial on that charge. Upon conviction of that charge the marine 
may then be subject to trial by court-martial for all offenses under 
this chapter committed before the fraudulent discharge. Additionally, 
upon completion of their term and separation from the service, members 
of the Reserve component not on Active Duty receive a DD Form 256 
(Honorable Discharge Certificate) or DD Form 257 (General Discharge 
Certificate) for entry into their official military personnel file 
(OMPF). For servicemembers involuntary (administratively) separated 
from the service, the separation authority's direction letter, which 
also details their characterization of service, is provided to the 
servicemember and entered into their OMPF.

    13. Senator Reed. Major General Ewers, are there any other measures 
the Marine Corps can take to address the conduct of former marines for 
misconduct directly associated with their Marine Corps service?
    Major General Ewers. Articles 2 and 3, UCMJ, provide jurisdictional 
authority over an enumerated list of servicemembers, which typically 
differ by affiliation or status within the Armed Forces. Generally, if 
the marine is no longer serving in a Reserve status and not a retiree 
or person otherwise enumerated under article 2 then the Marine Corps 
may no longer retain personal jurisdiction over an alleged offender for 
criminal prosecution. However, federal, state, or local authorities may 
also have jurisdiction over the person and the offense(s) and may 
initial criminal prosecution accordingly. Additionally, while the 
Separation and Retirement Manual (``MARCORSEPMAN''), MCO 1900.16 w/ CH-
1, dated August 7, 2015, does not specifically grant authority for the 
Commandant of the Marine Corps (CMC) or Deputy Commandant of Manpower 
and Reserve Affairs to ``reopen'' the retirement grade determination of 
retired servicemembers, SECNAVINST [Secretary of the Navy Instruction] 
1920.6c w/ CH-5, dated August 26, 2015, does permit the Secretary of 
the Navy, or his delegate, to reopen an officer's retirement grade 
determination if: ``(2) Substantial new evidence is discovered within 2 
years following separation which could have resulted in a lower grade 
determination had it been known by competent authority at the time of 
separation. For example, if an officer's misconduct committed while 
still on Active Duty is . . . substantiated after retirement by a 
criminal conviction or an adverse finding or conclusion from an 
officially documented investigation or inquiry, and such misconduct was 
not discoverable before retirement through due diligence, a new grade 
determination may be conducted. Notwithstanding the 2-year period, 
SECNAV may reopen a retirement grade determination up to 5 years after 
retirement in extraordinary circumstances . . . '' Para. 3, Encl. (6) 
of the SECNAVINST pertains.

    14. Senator Reed. Major General Ewers, the UCMJ does not have a 
punitive article expressly prohibiting ``revenge porn.''
    Do you believe the Military Services need a new punitive article to 
address the kind of alleged misconduct related to the Marines United 
Facebook site, or do other punitive articles of the UCMJ adequately 
address this misconduct?
    Major General Ewers. The National Defense Authorization Act for 
Fiscal Year 2018 has created a new punitive article 117a, UCMJ, that 
expressly prohibits non-consensual distribution of intimate images. 
Additionally, the U.S. Navy Regulations of 1990 were modified on April 
18, 2017 to include article 1168 which prohibits the non-consensual 
distribution of intimate images by marines and sailors and is 
punishable under article 92, UCMJ. On May 9, 2017, the MARCORSEPMAN was 
amended to include processing for separation is mandatory following the 
first substantiated incident of sexual harassment involving a 
``[v]iolation of article 1168 of the U.S. Navy Regulations including, 
but not limited to, the distribution or broadcasting of an intimate 
image, without consent, if done for personal gain; or with the intent 
to humiliate, harm, harass, intimidate, threaten, or coerce the 
depicted person; or with reckless disregard as to whether the depicted 
person would be humiliated, harmed, intimidated, threatened, or 
coerced.''

    15. Senator Reed. Major General Ewers, the Navy Court of Criminal 
Appeals has ruled that a mere viewing of an indecent photograph was not 
a violation of article 120c of the Uniform Code of Military Justice.
    In your view, is intentional viewing of a sexually explicit 
photograph of another marine who did not consent to making that photo 
available for such viewing prejudicial to good order and discipline or 
service discrediting?
    Major General Ewers. (1) In United States v. Quick, 74 M.J. 
[Military Justice] 517, decided October 31, 2014, the Navy and Marine 
Corps Court of Criminal Appeals held that the specification under the 
charge for indecent viewing did not state an offense under article 
120c, UCMJ, because the express proscription of the making or 
broadcasting of indecent visual recordings implied that the viewing of 
indecent visual recordings was not proscribed and that the 
specification did not allege that the appellant viewed the victim's 
private area but alleged that he viewed a visual recording of her 
private area. (2) In general, article 134, UCMJ, makes punishable acts 
in three categories of offenses not specifically covered in any other 
article of the Code--such offenses to include ``all disorders and 
neglects to the prejudice of good order and discipline in the Armed 
Forces, all conduct of a nature to bring discredit upon the Armed 
Forces, and crimes and offenses not capital, of which persons subject 
to this chapter may be guilty.'' Article 133, UCMJ, applicable to 
officers, criminalizes an act or omission that, under the 
circumstances, constituted conduct unbecoming an officer and 
gentleman--i.e., ``action or behavior in an official capacity which, in 
dishonoring or disgracing the person as an officer, seriously 
compromises the officer's character as a gentleman, or action or 
behavior in an unofficial or private capacity which, in dishonoring or 
disgracing the officer personally, seriously compromises the person's 
standing as an officer.'' Article 133 includes acts made punishable by 
any other article. (3) Whether or not the conduct described in the 
question above may be prosecuted under articles 133 and/or 134 depends 
on the facts or circumstances of each case.

    [The opinion in UNITED STATES v. Quick, referenced above, 
attached:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      

    16. Senator Reed. Major General Ewers, can such conduct be charged 
as a violation of article 134 of the UCMJ?
    Major General Ewers. (1) In United States v. Quick, 74 M.J. 517, 
decided October 31, 2014, the Navy and Marine Corps Court of Criminal 
Appeals held that the specification under the charge for indecent 
viewing did not state an offense under article 120c, UCMJ, because the 
express proscription of the making or broadcasting of indecent visual 
recordings implied that the viewing of indecent visual recordings was 
not proscribed and that the specification did not allege that the 
appellant viewed the victim's private area but alleged that he viewed a 
visual recording of her private area. (2) In general, article 134, 
UCMJ, makes punishable acts in three categories of offenses not 
specifically covered in any other article of the Code--such offenses to 
include ``all disorders and neglects to the prejudice of good order and 
discipline in the Armed Forces, all conduct of a nature to bring 
discredit upon the Armed Forces, and crimes and offenses not capital, 
of which persons subject to this chapter may be guilty.'' Article 133, 
UCMJ, applicable to officers, criminalizes an act or omission that, 
under the circumstances, constituted conduct unbecoming an officer and 
gentleman--i.e., ``action or behavior in an official capacity which, in 
dishonoring or disgracing the person as an officer, seriously 
compromises the officer's character as a gentleman, or action or 
behavior in an unofficial or private capacity which, in dishonoring or 
disgracing the officer personally, seriously compromises the person's 
standing as an officer.'' Article 133 includes acts made punishable by 
any other article. (3) Whether or not the conduct described in the 
question above may be prosecuted under articles 133 and/or 134 depends 
on the facts or circumstances of each case.
                               __________
           Questions Submitted by Senator Kirsten Gillibrand
                             marines united
    17. Senator Gillibrand. General Neller, Major General Ewers, and 
Mr. Traver, what can you tell us about the additional groups that have 
grown out of Marines United?
    General Neller, Major General Ewers, and Mr. Traver. NCIS has not 
seen additional groups grow out of the original Marines United private 
Facebook group. Our investigation has determined that the original 
Marines United site was taken down, and individuals have subsequently 
recreated/replicated the site. The NCIS investigation has also 
identified additional sites on the Internet that depict nude 
servicemembers, both male and female, from all Services. Many of these 
sites predated the Marines United site, and many were active 
concurrently with the Marines United site. NCIS continues to 
investigate whether or not any photographs on these sites are connected 
to a criminal offense.

    18. Senator Gillibrand. Mr. Traver, if you have a cooperating 
witness, why don't you have access to the Google Drive?
    Mr. Traver. NCIS has utilized cooperating witnesses associated with 
social media platforms and suspect websites. NCIS could not access the 
Google drive associated with the Marines United site because the Google 
drive was disabled prior to NCIS commencing its investigation.

    19. Senator Gillibrand. Mr. Traver, are you aware of any civilians 
or military family members whose images were posted?
    Mr. Traver. NCIS is investigating all criminal allegations under 
NCIS' jurisdiction. Throughout the investigation, civilians and 
military family members have been identified. NCIS works with other 
federal, state and local law enforcement agencies and prosecutors on 
criminal information developed outside of NCIS' jurisdiction.

    20. Senator Gillibrand. Major General Ewers, do you have the 
authorities to move people who participated in the Drive if the person 
who they posted is in the same location as they are? What about others 
who harass a survivor because they saw her photo online?
    General Ewers. The Commandant of the Marine Corps takes seriously 
and understands the intolerable and corrosive effects that online 
social media misconduct has on our institution. He is committed to 
doing what is necessary to change the negative elements within the 
organization that have failed to appreciate the core values of dignity 
and respect and have ultimately facilitated this problem. Reassignment 
of personnel must be considered on a case by case basis, ensuring 
continuing support for victims while safeguarding due process for 
alleged offenders. The Marine Corps Personnel Assignment Policy, Marine 
Corps Order 1300.8, dated 18 September 2014, authorizes the 
administrative reassignment or transfer of Marines accused of sexual 
assault or related offenses. Further, Marine Corps Order 1752.5B, 
Sexual Assault Prevention and Response (SAPR) Program, dated 1 March 
2013, outlines the policies and procedures for administrative 
reassignment or transfer of these Marines. PCS [permanent change of 
station] orders should be used to facilitate transfers only in extreme 
cases, when no other options are available. Only CMC (MM/RA [Manpower 
Management/Reserve Affairs]) may effect PCA [permanent change of 
assignment] or PCS orders. However, the Sexual Assault Initial 
Disposition Authority (SA-IDA) of the accused may authorize and effect 
intra-unit or unit transfers.
                               __________
           Questions Submitted by Senator Richard Blumenthal
                        marine corps precedence
    21. Senator Blumenthal. Secretary Stackley, General Neller, General 
Ewers, and General Reynolds, the Marines United incident is not an 
isolated occurrence, rather it is the third reported case of sexist, 
online harassment in the last 4 years for the Marines. In 2013, the 
Marine Corps was heavily criticized for its failure to address online 
targeting of female marine by their fellow servicemembers. Then-
Commandant General Amos began to address social media and it was soon 
reported to Congress that training and policies were put in place to 
deter marines from inappropriate conduct. However, in 2014 another 
report was published that detailed Facebook accounts run by male 
marines that exploited women and perpetuated rape culture. Clearly, the 
training and policies the Marines have implemented is not working. I am 
disheartened that we are here again discussing a remarkably similar 
occurrence, a mere 4 years later. What are you going to do put a stop 
to this behavior? What resources and support are available to marines 
and civilians that suspect their photographs or information have been 
compromised?
    Secretary Stackley, General Neller, General Ewers, and General 
Reynolds. We formed a task force led by Assistant Commandant General 
Glenn Walters to recommend long-term solutions for the Corps. This is a 
complex problem, and we must address it thoughtfully to ensure we reach 
all ranks. In the near term, we are looking at ways to address online 
behaviors in our existing initiatives. We continue to seek innovative 
ways and a holistic approach to address destructive behaviors. One 
example includes ``Join the Conversation,'' a Professional Military 
Education designed to provide marines with guidance on identifying 
potentially destructive behaviors, confronting biases, and intervening 
appropriately. Specifically, it addresses the destructive behaviors 
hazing, sexual harassment, sexual assault, retaliation, and alcohol 
misuse. We are currently revising that education to directly confront 
the unacceptable permissive culture that promulgates the 
objectification of women. Marines, their dependents, and civilians 
impacted by this online misconduct are our highest priority. We will 
take care of them. We have established many avenues to access support 
services and made sure our service providers have the tools necessary 
to support those impacted. Service providers stand ready to provide 
immediate crisis intervention and information and referrals to anyone 
who comes forward. If someone impacted by the Marines United article or 
other social media misconduct wishes to maintain privacy, he/she may 
reach out to the chaplain and/or Victims Legal Counsel (VLC). The 
Marine Corps DSTRESS line provides a 24 hours a day, 7 days a week, 
anonymous phone and chat and referral service using a `Marine-to-
Marine' approach via 1-877-476-7734 and/or through www.marines.mil. 
Other services available to an individual impacted are behavioral 
health counselors (Community Counseling Program), Sexual Assault 
Prevention and Response Victim Advocates, chain of command, Naval 
Criminal Investigative Services (NCIS), local law enforcement, 
Inspector General, equal opportunity advisors, victim witness assistant 
coordinators, and Military OneSource. A Marine Corps-specific website 
(www.marines.mil/) launched on 16 March 2017 and provides options for 
supportive services for those impacted by the Marines United article 
and/or other social media misconduct. The website also contains a 
multitude of frequently asked questions pertaining to social media 
misconduct. To report a crime or pass information on Marines United, 
NCIS provides servicemembers and civilians safe, discreet, and 
anonymous options to report criminal and force protection threats. 
Complaints may be reported to the Naval Criminal Investigative Service 
through their website; by text; by using the TipSubmit App; and/or by 
phone. Alternatively, reports may be made through the local Inspector 
General Hotline.

    22. Senator Blumenthal. Secretary Stackley, General Neller, and 
Sergeant Major Green, the Marine Corps has training and policies 
providing guidance for online behavior. Clearly this is not enough. I 
believe this is a deeply rooted cultural issue. Until this culture is 
changed, we will continue to see these horrendous events. How do you 
intend to change the culture to stop promulgating the objectification 
of women and truly treat them as equals?
    Secretary Stackley, General Neller and Sergeant Major Green. Our 
core values are honor, courage, and commitment. Marines who objectify 
women and do not treat them as equals are not living up to those 
values, to our Marine Corps ethos. A culture permissive to this kind of 
demeaning behavior is unacceptable. We formed a task force led by 
Assistant Commandant General Glenn Walters to recommend long-term 
solutions for the Corps. This is a complex problem, and we must address 
it thoughtfully to ensure we reach all ranks. Every marine--and that 
includes female marines--earns their title and deserves the respect of 
their fellow marines. Addressing this permissive culture begins at the 
recruiting depots and carries forward throughout the career of a 
marine. Our training and educations programs are under revision now to 
tackle this problem head on. This cultural change will begin in the 
classroom, but it will not end there. We will take our message to the 
barracks, to the rifle range, to online forums--to any environment that 
marines operate--and will make it clear that misogyny is not compatible 
with our core values. One resource we have created to share this 
message is a commander's discussion guide. The guided scenarios and 
background information in this guide will help ensure that all marines 
are trained and have the necessary tools to combat this demeaning 
behavior.

    23. Senator Blumenthal. General Reynolds, do you believe the 
current training and policies are accurate enough and broad enough to 
cover the vastness of cyber possibilities? How would you change any of 
the current training or policies to better protect marines?
    General Reynolds did not respond in time for printing. When 
received, answer will be retained in committee files.
                           ucmj, article 120c
    24. Senator Blumenthal. General Neller, General Ewers, and Mr. 
Traver, article 120c of the Uniform Code of Military Justice is one of 
the articles that individuals suspected of participating in 
distributing pictures on Marines United could be prosecuted under. The 
Marine Corps has said there have already been individuals in unrelated 
cases prosecuted for violating article 120c. It reads:
    (a)  Indecent Viewing, Visual Recording, or Broadcasting.--Any 
person subject to this chapter who, without legal justification or 
lawful authorization--
         (1)  knowingly and wrongfully views the private area of 
another person, without that other person's consent and under 
circumstances in which that other person has a reasonable expectation 
of privacy;
         (2)  knowingly photographs, videotapes, films, or records by 
any means the private area of another person, without that other 
person's consent and under circumstances in which that other person has 
a reasonable expectation of privacy; or
         (3)  knowingly broadcasts or distributes any such recording 
that the person knew or reasonably should have known was made under the 
circumstances proscribed in paragraphs (1) and (2);
        is guilty of an offense under this section and shall be 
punished as a court-martial may direct.
    How has the Marine Corps handled similar cases, in terms of 
military justice or administrative actions? How many marines have been 
prosecuted under article 120c of the UCMJ for social media violations?
    General Neller, General Ewers, and Mr. Traver. To date (since the 
report of misconduct involving members the Marines United Facebook 
group), there have been at least 116 subjects, suspects, or persons of 
interest (hereinafter, collectively, ``subjects'') reported for alleged 
online social media misconduct involving 22 non-DOD civilians and 94 
marines as subjects. Of the 94 cases in which the Marine Corps 
maintained at least administrative jurisdiction, 68 cases have reached 
disposition and 26 remain in a pending status. In terms of severity of 
action, there have been guilty findings at 5 special courts-martial and 
1 summary court-martial; 10 cases adjudicated via non-judicial 
punishment; 5 administrative separations; 25 formal adverse 
administrative actions; and, in 22 cases, no formal administrative 
action. In each of these cases commanders have exercised their 
independent and unfettered disciplinary disposition authority in 
reaching their decisions. Authorities for the various disciplinary 
actions have involved, among others: violations of the UCMJ article 92, 
(pursuant to article 1168, U.S. Navy Regulations, and Marine Corps 
Order 1000.9A (Sexual Harassment)); article 120c; article 134; and, 18 
U.S.C. 2261A (Stalking). The investigation into the Marines United 
Facebook Group involved a review of more than 120,000 images from over 
170 other websites. Investigators determined that while there were more 
than 22,000 images with persons depicted who had a possible Department 
of Defense affiliation, there were approximately 7,867 images with 
persons depicted who had a possible Marine Corps affiliation. Employing 
technology to include facial recognition software, investigators 
determined that only 68 potential victims were identifiable of the 
7,867 images. Further, investigators confirmed 31 of the 68 potential 
victims, and only 8 confirmed victims were able to identify a subject. 
These subjects are factored into the 116 subjects reported for 
investigation and disposition.

    25. Senator Blumenthal. General Neller, General Reynolds, General 
Ewers, and Mr. Traver, article 120c only addresses instances in which 
photos were taken without consent. This does not include photos that 
were taken with the consent, but then distributed beyond the consented 
party--more commonly known as a form of revenge porn. The original 
story broken by investigative journalist Thomas James Brennan on this 
scandal reports that many of the photos seem to fall within this 
category. This is an important privacy issue that must be addressed. Do 
you agree that there is a gap in the UCMJ for this type of crime? What 
other gaps do you believe exist?
    General Neller, General Reynolds, General Ewers, and Mr. Traver. In 
United States v. Quick, 74 M.J. 517, decided October 31, 2014, the Navy 
and Marine Corps Court of Criminal Appeals held that the specification 
under the charge for indecent viewing did not state an offense under 
article 120c, UCMJ, because the express proscription of the making or 
broadcasting of indecent visual recordings implied that the viewing of 
indecent visual recordings was not proscribed and that the 
specification did not allege that the appellant viewed the victim's 
private area but alleged that he viewed a visual recording of her 
private area. NDAA updates, year over year, continue to impact the area 
of military justice, to include both substantive and procedural 
changes. For example, article 120c, UCMJ--other sexual misconduct--is 
amended to correct mistaken indications that it applies to the 
nonconsensual broadcasting of an image of a private area where the 
image was initially created with the subject's consent. The National 
Defense Authorization Act for Fiscal Year 2018 has created a new 
punitive article 117a, UCMJ, that expressly prohibits non-consensual 
distribution of intimate images. Additionally, the U.S. Navy 
Regulations of 1990 were modified on April 18, 2017 to include article 
1168 which prohibits the non-consensual distribution of intimate images 
by marines and sailors and is punishable under article 92, UCMJ. On May 
9, 2017, the MARCORSEPMAN was amended to include processing for 
separation is mandatory following the first substantiated incident of 
sexual harassment involving a ``[v]iolation of article 1168 of the U.S. 
Navy Regulations including, but not limited to, the distribution or 
broadcasting of an intimate image, without consent, if done for 
personal gain; or with the intent to humiliate, harm, harass, 
intimidate, threaten, or coerce the depicted person; or with reckless 
disregard as to whether the depicted person would be humiliated, 
harmed, intimidated, threatened, or coerced.'' In general, article 134, 
UCMJ, makes punishable acts in three categories of offenses not 
specifically covered in any other article of the Code--such offenses to 
include ``all disorders and neglects to the prejudice of good order and 
discipline in the Armed Forces, all conduct of a nature to bring 
discredit upon the Armed Forces, and crimes and offenses not capital, 
of which persons subject to this chapter may be guilty.'' Article 133, 
UCMJ, applicable to officers, criminalizes an act or omission that, 
under the circumstances, constituted conduct unbecoming an officer and 
gentleman--i.e., ``action or behavior in an official capacity which, in 
dishonoring or disgracing the person as an officer, seriously 
compromises the officer's character as a gentleman, or action or 
behavior in an unofficial or private capacity which, in dishonoring or 
disgracing the officer personally, seriously compromises the person's 
standing as an officer.'' Article 133 includes acts made punishable by 
any other article. Whether or not the conduct described in the question 
above may be prosecuted under articles 133 and/or 134 depends on the 
facts or circumstances of each case.

    26. Senator Blumenthal. General Neller, General Reynolds, General 
Ewers, and Mr. Traver, understanding that the criminal investigation 
related to Marines United has only just begun, what articles of the 
UCMJ besides article 120c would you expect that individuals could be 
charged with given the types of activities described by the 
investigative journalist? What types of punishment will you seek?
    General Neller, General Reynolds, General Ewers, and Mr. Traver. As 
has been the case, I expect each of the commanders involved in these 
cases to exercise their independent and unfettered disciplinary 
disposition authority in reaching their decisions. Authorities for the 
various disciplinary actions have involved, among others: violations of 
the UCMJ article 92, (pursuant to article 1168, U.S. Navy Regulations, 
and Marine Corps Order 1000.9A (Sexual Harassment)); article 120c; 
article 134; and, 18 U.S.C. 2261A (Stalking).
                           ncis investigation
    27. Senator Blumenthal. General Reynolds, in early February, an 
investigative reported contacted Marine Corps Public Affairs Office to 
inform them of his intent to publish a story about Marines United 
Facebook page. The reporter, a former marine, was concerned that the 
private pages on this site contained inappropriate content to include a 
Google drive containing pictures of women (some of them naked) and 
personal information about them to include name, rank, and work 
location. An NCIS investigation began on February 22, 2017. Letters 
have been sent to Facebook and Google to preserve the sites. Google has 
taken down the Google drive while the Facebook page continues to 
function. A subpoena for information regarding the Facebook page is 
expected to be granted this week (March 13-18). Marines United was 
started as a suicide prevention support page and had 30,000 members. 
There are reports that new Facebook pages and sites have popped up to 
replace Marines United. How are you addressing these breakoff groups? 
How will you hold marines accountable that continue to perpetrate this 
abhorrent conduct?
    General Reynolds did not respond in time for printing. When 
received, answer will be retained in committee files.

    28. Senator Blumenthal. General Reynolds, what has been done to 
work with social media and network providers to delete photos?
    General Reynolds did not respond in time for printing. When 
received, answer will be retained in committee files.

    29. Senator Blumenthal. Mr. Traver, not everyone involved in the 
Marines United incident will be prosecutable under the UCMJ--as reports 
have led us to believe that civilians and former marines (not retired) 
were involved. You testified that you are not working with local 
authorities. Why is that? Will you commit to actively assisting 
civilian prosecutors within the appropriate jurisdiction in bringing 
these individuals to justice?
    Mr. Traver. NCIS is actively investigating all criminal allegations 
as they pertain to this matter. During the course of the ongoing 
investigation, NCIS has identified civilians and former servicemembers 
as potential victims and potential suspects. If, during the course of 
these investigations, information is developed about potential victims 
or suspects outside of NCIS' jurisdiction, NCIS will extract all 
pertinent information and actionable criminal intelligence related to 
the allegation and will make contact with the applicable federal, state 
or local law enforcement entity or civilian prosecutor with 
jurisdiction. NCIS will work in conjunction with that agency in pursuit 
of judicial outcomes.

    30. Senator Blumenthal. General Neller, General Reynolds, General 
Ewers, and Mr. Traver, what has been done to communicate with and 
assist identifiable victims?
    General Neller, General Reynolds, General Ewers, and Mr. Traver did 
not respond in time for printing. When received, answer will be 
retained in committee files.

    31. Senator Blumenthal. General Neller, General Reynolds, General 
Ewers, and Mr. Traver, what is the Marine Corps doing to encourage 
people to come forward?
    General Neller, General Reynolds, General Ewers, Mr. Traver. To 
date (since the report of misconduct involving members the Marines 
United Facebook group), there have been at least 116 subjects, 
suspects, or persons of interest (hereinafter, collectively, 
"subjects") reported for alleged online social media misconduct 
involving 22 non-DoD civilians and 94 Marines as subjects. Of the 94 
cases in which the Marine Corps maintained at least administrative 
jurisdiction, 68 cases have reached disposition and 26 remain in a 
pending status. In terms of severity of action, there have been guilty 
findings at 5 special courts-martial and 1 summary court-martial; 10 
cases adjudicated via non-judicial punishment; 5 administrative 
separations; 25 formal adverse administrative actions; and, in 22 
cases, no formal administrative action. In each of these cases 
commanders have exercised their independent and unfettered disciplinary 
disposition authority in reaching their decisions. Authorities for the 
various disciplinary actions have involved, among others: violations of 
the UCMJ Article 92, (pursuant to Article 1168, U.S. Navy Regulations, 
and Marine Corps Order 1000.9A (Sexual Harassment)); Article 120c; 
Article 134; and, 18 U.S.C. 2261A (Stalking). The investigation into 
the Marines United Facebook Group involved a review of more than 
120,000 images from over 170 other websites. Investigators determined 
that while there were more than 22,000 images with persons depicted who 
had a possible Department of Defense affiliation, there were 
approximately 7,867 images with persons depicted who had a possible 
Marine Corps affiliation. Employing technology to include facial 
recognition software, investigators determined that only 68 potential 
victims were identifiable of the 7,867 images. Further, investigators 
confirmed 31 of the 68 potential victims, and only 8 confirmed victims 
were able to identify a subject. These subjects are factored into the 
116 subjects reported for investigation and disposition.

    32. Senator Blumenthal. Mr. Traver, does NCIS have the resources 
and capability to fully investigate this situation? What other federal 
agencies are you working with?
    Mr. Traver. Yes, NCIS possesses sufficient manpower and technical 
resources to fully investigate this situation. NCIS has allocated 
significant resources to investigate allegations of criminal violations 
associated with this investigative effort. NCIS special agents 
throughout the agency are aggressively working investigations relating 
to the nonconsensual taking and nonconsensual posting of sexually 
explicit photographs of servicemembers. An NCIS-led Military Criminal 
Investigative Organization Task Force has been established at the 
Russell-Knox Building in Quantico, Va., to thoroughly investigate 
criminal allegations irrespective of Military Service. This task force 
includes NCIS special agents from the criminal investigations 
directorate, special agents from the cyber directorate, computer 
scientists, criminal analysts and criminal sociologists. The task force 
is composed of assets from NCIS, Air Force Office of Special 
Investigations, U.S. Army Criminal Investigation Command and Coast 
Guard Investigative Service. If, during the conduct of the 
investigations, individuals are identified that do not fall under the 
purview of one of the members of the task force, NCIS will contact the 
appropriate federal, state or local law enforcement entity.

    33. Senator Blumenthal. Mr. Traver, you testified that NCIS has a 
cooperative witness with access to the Google drive, but that NCIS does 
not have access to the drive. Why have you not gained access to the 
drive?
    Mr. Traver. NCIS has utilized cooperating witnesses associated with 
social media platforms and suspect websites. NCIS could not access the 
Google drive associated with the Marines United site because the Google 
drive was disabled prior to NCIS initiating an investigation.
                             cyber bullying
    34. Senator Blumenthal. General Ewers, I understand the Uniform 
Code of Military Justice (UCMJ) is broadly written, but it does not 
explicitly address cyber bullying. Article 134 functions as a catchall, 
stating ``Though not specifically mentioned in this chapter, all 
disorders and neglects to the prejudice of good order and discipline in 
the Armed Forces, all conduct of nature to bring discredit upon the 
Armed Forces, and crimes and offenses no capital, of which persons 
subject to this chapter may be guilty, shall be taken cognizance of by 
a general, special or summary court-martial, according to the nature 
and degree of the offense, and shall be punished at the discretion of 
that court.'' While I have been told this article could be used to 
prosecute cyber bullying, I would argue that having an article in the 
UCMJ specifically addressing cyber bullying would not only provide a 
means for pointed prosecution, but would send a message that DOD is 
serious about its obligation to protecting its servicemembers and 
prosecuting those that intend to do harm. The consequences for these 
inappropriate actions on Marines United need to be severe and swift 
enough to make a significant impact to change and deter despicable 
behavior. I am considering introducing legislation to specifically 
include cyberbullying as an offense under the UCMJ. Do you believe it 
would be helpful to more explicitly address cyber bullying by including 
an article specifically addressing it to get at behavior that uses 
electronic communications to intimidate or threaten other marines? Are 
there examples you can point to when the existing catchall provision 
has been effectively used by JAGs [Judge Advocate Generals] to 
prosecute for behavior that would be considered by a layman to be 
cyberbullying?
    General Ewers. In general, article 134, UCMJ, makes punishable acts 
in three categories of offenses not specifically covered in any other 
article of the Code--such offenses to include ``all disorders and 
neglects to the prejudice of good order and discipline in the Armed 
Forces, all conduct of a nature to bring discredit upon the Armed 
Forces, and crimes and offenses not capital, of which persons subject 
to this chapter may be guilty.'' Article 133, UCMJ, applicable to 
officers, criminalizes an act or omission that, under the 
circumstances, constituted conduct unbecoming an officer and 
gentleman--i.e., ``action or behavior in an official capacity which, in 
dishonoring or disgracing the person as an officer, seriously 
compromises the officer's character as a gentleman, or action or 
behavior in an unofficial or private capacity which, in dishonoring or 
disgracing the officer personally, seriously compromises the person's 
standing as an officer.'' Article 133 includes acts made punishable by 
any other article. Whether or not the conduct described in the question 
above may be prosecuted under articles 133 and/or 134 depends on the 
facts or circumstances of each case. The National Defense Authorization 
Act for Fiscal Year 2018 has created a new punitive article 117a, UCMJ, 
that expressly prohibits non-consensual distribution of intimate 
images. Additionally, the U.S. Navy Regulations of 1990 were modified 
on April 18, 2017 to include article 1168 which prohibits the non-
consensual distribution of intimate images by marines and sailors and 
is punishable under article 92, UCMJ. Additionally, authorities for the 
various disciplinary actions may involve, among others: violations of 
the UCMJ article 92, (pursuant to Marine Corps Order 1000.9A (Sexual 
Harassment)); article 120c; article 134; and, 18 U.S.C. 2261A 
(Stalking).

    35. Senator Blumenthal. General Ewers, the Supreme Court considered 
the question of freedom of expression in the Armed Forces in the 1974 
case, Parker v. Levy. The decision noted, ``Speech that is protected in 
the civil population may nonetheless undermine the effectiveness of 
response to command. If it does, it is constitutionally unprotected.'' 
In order for the individuals who have participated in cyber bullying 
and harassment to fully be held accountable, it is important for us to 
understand what speech you all believe is constitutionally protected in 
these circumstances. Do you believe that speech designed to intimidate 
or endanger the lives of marines is protected by the First Amendment? 
From what you have learned of the photographs and statements made on 
the relevant Google drive on the Marines United Facebook page, do you 
anticipate finding conduct that is not constitutionally protected and 
can be prosecuted under the UCMJ? Will you extend that analysis to both 
military and retired military?
    General Ewers. The National Defense Authorization Act for Fiscal 
Year 2018 has created a new punitive article 117a, UCMJ, that expressly 
prohibits non-consensual distribution of intimate images. Moreover, the 
U.S. Navy Regulations of 1990 were modified on April 18, 2017 to 
include article 1168 which prohibits the non-consensual distribution of 
intimate images by marines and sailors and is punishable under article 
92, UCMJ. Additionally, authorities for the various disciplinary 
actions may involve, among others: violations of the UCMJ article 92, 
(pursuant to Marine Corps Order 1000.9A (Sexual Harassment)); article 
120c; article 134; and, 18 U.S.C. 2261A (Stalking). Articles 2 and 3, 
UCMJ, permit the Marine Corps to prosecute current servicemembers and 
retirees, among others specifically enumerated, for an offense 
committed while on Active Duty or, in the case of a reservist, during 
inactive-duty training (i.e., drill). However, in certain 
circumstances, when a former servicemember, not including retirees, 
separates from the service completely, the Marine Corps may no longer 
retain personal jurisdiction over an alleged offender. Article 3(d) 
specifically states, ``A member of a Reserve component who is subject 
to this chapter is not, by virtue of the termination of a period of 
Active Duty or inactive-duty training, relieved from amenability to the 
jurisdiction of this chapter for an offense against this chapter 
committed during such period of Active Duty or inactive-duty 
training.'' If the marine is no longer serving in a Reserve status and 
not a retiree or person otherwise enumerated under article 2 then the 
Marine Corps may no longer retain personal jurisdiction over an alleged 
offender. However, federal, state, or local authorities may also have 
jurisdiction over the person and the offense(s) and may initial 
criminal prosecution accordingly.

    36. Senator Blumenthal. General Neller, General Reynolds, General 
Ewers, Mr. Traver, and Sergeant Major Green, to deter future incidents, 
I believe individuals must be held accountable for their actions. When 
this investigation is complete, do you commit to holding these 
individuals accountable to the fullest extent of the Uniform Code of 
Military Justice and to reporting back to us any barriers to your 
investigation in current law that made it more challenging to prosecute 
so that we may make it easier to hold people accountable in the future?
    General Neller, General Reynolds, General Ewers, Mr. Traver and 
Sergeant Major Green. We take seriously and understand the intolerable 
and corrosive effects that online social media misconduct has on our 
institution. We are committed to doing what is necessary to change the 
negative elements within the organization that have failed to 
appreciate the core values of dignity and respect and have ultimately 
facilitated this problem as well as to ensure that commanders have the 
tools necessary for accountability. With that said, we also expect each 
of the commanders involved in these cases to exercise their completely 
independent and unfettered disciplinary disposition authority in 
reaching their decisions.
                               __________
            Questions Submitted by Senator Elizabeth Warren
      updating armed forces disciplinary control board procedures
    37. Senator Warren. General Neller, Marine Corps commanders 
currently have the authority to maintain a list of establishments that 
are off-limits for servicemembers, under procedures set in place at 32 
C.F.R 631, Armed Forces Disciplinary Control Board. In 2013, one of 
your predecessors, General Amos, told Rep. Jackie Speier that the 
Marines were examining whether it was possible to legally make certain 
websites off-limits in the same way (letter attached for reference).

    What was the result of that assessment?
    General Neller. In 2006, the Services signed onto a measure which 
governed the establishment and operation of Armed Forces Disciplinary 
Control Boards (AFDCB) by the Services, applicable to the Marine Corps 
as Marine Corps Order 1620.2D. The order states that the Commandant, 
U.S. Marine Corps will develop and have staff supervision over AFDCBs 
and off-installation enforcement policies. The establishment of off-
limits areas is a function of command. It may be used by commanders to 
help maintain good order and discipline, health, morale, safety, and 
welfare of service personnel. Off-limits action is also intended to 
prevent service personnel from being exposed to or victimized by crime-
conducive conditions. Where sufficient cause exists, commanders retain 
substantial discretion to declare establishments or areas temporarily 
off-limits to personnel of their respective commands in emergency 
situations. Service personnel are prohibited from entering 
establishments or areas declared off-limits according to this 
regulation. Violations may subject the member to disciplinary action 
per applicable service regulations and the UCMJ. However, the AFDCBs 
are used on brick-and-mortar establishments within a base's or 
installation's defined geographic parameters or jurisdiction, 
generally. The same cannot be said of Internet sites, particularly 
given the scope and quantity of sites on the Internet, how quickly they 
are created, moved, and/or deleted. Further, the procedure for placing 
an establishment on an off-limits list affords the proprietor of said 
establishment with due process, often including an invitation to meet, 
engage in productive discourse, and arrange to remove any aspect that 
operates to degrade good order and discipline, etc. Therefore, it is 
not feasible to make certain Internet websites off-limits in the same 
way as brick-and-mortar establishments.

    38. Senator Warren. General Neller, would you support an off-limits 
list of this nature, why or why not?
    General Neller. For the above-stated reasons, it is not feasible to 
make certain websites off-limits in the same way as brick-and-mortar 
establishments.

    39. Senator Warren. General Neller, do you need additional 
authorities in order to be able to create such a list, and if so, what 
authorities are needed?
    General Neller. For the above-stated reasons, it is not feasible to 
make certain websites off-limits in the same way as brick-and-mortar 
establishments.
              monitoring adverse behavior on the internet
    40. Senator Warren. General Neller, in your press briefing last 
week, you said ``the Marine Corps is not out there looking for sites'' 
like this. Given the number of incidents, will you reconsider this 
policy, why or why not?
    General Neller did not respond in time for printing. When received, 
answer will be retained in committee files.
    comprehensive training for integration of women into combat arms
    41. Senator Warren. General Neller, the Marine Corps did a 
significant amount of training in preparation for the repeal of Don't 
Ask Don't Tell, and by many accounts that training was very effective. 
What training was provided to marines in advance of the integration of 
women into combat arms roles, and how does this training compare to the 
Don't Ask Don't Tell experience?
    General Neller. The material and delivery methodology were modeled 
on the plan used for ``Don't Ask Don't Tell'' training. During 2016, 
the Marine Corps sent a mobile training team (MTT) to 11 major bases 
and stations around the world to provide Tier 1 training and 
educational materials to more than 1,000 Marine leaders. Designed to 
set the conditions for successful integration of female marines into 
newly opened MOSs [military occupation specialty codes] and units, the 
MTT briefed and conducted small group discussions focusing on: An 
overview of the Marine Corps Integration Implementation Plan 
Administrative changes as a result of the new policy; Lessons learned 
from previously integrated Marine Corps units and Allied Forces; 
Unconscious bias effects on decision making, Organizational culture; 
and Communication skills and techniques Every O-5 and O-6 level command 
was required to identify at least two command representatives to attend 
Tier 1 training. Commanders and sergeants major were highly encouraged 
to attend Tier 1 training but could send representatives in their 
place. For Active component units, at least one command representative 
had to be an officer (O-3 or above) and an enlisted command 
representative had to be E-7 or above. For Reserve component units, 
command representatives could be from the Selected Marine Corps Reserve 
(SMCR) and/or the Inspector and Instructor (I&I) staff. As unit subject 
matter experts, the command representatives then trained commanders and 
their staffs (tier 2), who in turn trained subordinate leaders (tier 3) 
who then trained marines and sailors under their charge (tier 4). 
Training was conducted in small group guided discussions.

    42. Senator Warren. General Neller, was the above training provided 
to all marines, or only to marines serving in combat units newly-
designated for integration?
    General Neller. Training was provided to all marines, both Active 
and Reserve. For marines in the Active component, tier 2 training was 
completed by August 2016; tier 3 training completed by September 2016; 
and tier 4 training completed by October 2016. For marines in the 
Reserve component, tier 2 training was completed by October 2016; tier 
3 training by November 2016; and tier 4 training completed by January 
2017.

    43. Senator Warren. General Neller, what training does the Marine 
Corps currently provide to educate marines about the importance of 
preventing sexual harassment, and is this training standardized and 
mandatory across the force, or subject to the commander's discretion?
    General Neller. Educating marines about the importance of 
preventing sexual harassment is both standardized and comprehensive 
throughout the Marine Corps. At entry level training, extensive 
training is conducted for both officer and enlisted marines. All 
marines are required to receive annually 3 hours of Equal Opportunity 
training on Sexual Harassment, Discrimination and Hazing conducted by 
command-designated personnel. Training topics include: equal 
opportunity leadership awareness; Examples of prohibited activities and 
how they differ from authorized activities Command and individual 
responsibilities to prevent and report sexual harassment, 
discrimination, and hazing; Unit reporting requirements; Sexual 
harassment and the Uniform Code of Military Justice; and Consequences 
for victim/witness retaliation. All recruits receive approximately 40 
hours of formal training in core values, 1.5 hours on hazing, 1.5 hours 
on cultural awareness, 2 hours on ethics, and 1.5 hours on equal 
opportunity. Additionally, there are numerous guided discussions 
throughout recruit training that have tie-ins to core values. Officer 
candidates receive approximately 3 hours of formal core values 
training, 3 hours of training on hazing, 6 hours in formal ethics 
instruction and 6 hours on equal opportunity. As with recruit training, 
there are numerous guided discussions and practical events that 
reinforce the Marine Corps' core values. Students at The Basic School 
receive 8.5 hours of formal core values training, 3.5 hours on hazing, 
3.5 hours in cultural awareness, 11.5 hours in formal ethics 
instruction and 3.5 hours on equal opportunity. Through the mandated 
Commandant's Commandership Course, all prospective commanding officers 
and senior enlisted advisors receive training on command climate, 
hazing and equal opportunity.

    44. Senator Warren. General Neller, is training provided verbally 
via in-person sessions or are marines permitted to complete this 
training online?
    General Neller did not respond in time for printing. When received, 
answer will be retained in committee files.

    45. Senator Warren. General Neller, does this training include any 
effort to discourage misogynistic or disparaging language toward women?
    General Neller. In the Marine Corps we have a saying: everything we 
do, in garrison or in the field, is preparation for combat. In a 
similar vein, we teach marines that all of our actions--on duty or on 
liberty--reflect who we are and what values we truly hold. We teach 
marines that honor, courage and commitment are not merely things we do; 
they are values bred into each and every marine from day one at boot 
camp or OCS [Officer Candidate School] and reflected 24/7 in our 
conduct in all circumstances. Commanders publish equal opportunity 
policy, stress leadership accountability and emphasize teamwork. 
Discrimination in any form--color, gender, race, religion, or national 
origin--or creating or failing to correct a hostile work environment 
based on any form of discrimination is contrary to our core values, and 
is contrary to mission accomplishment.

    46. Senator Warren. General Neller, does this training currently 
address behavior on social media?
    General Neller. Yes. As far back as 2010, the Marine Corps issued 
formal guidance on the appropriate and inappropriate use of social 
media. Among other things, that guidance stated that all marines are 
responsible for what they post; that the line between professional and 
personal lives blur in the online environment; and that postings that 
are defamatory, libelous, abusive, threatening, racially or ethnically 
hateful, or otherwise offensive or illegal may result in discipline 
under the UCMJ. All recruits receive approximately 2 hours of classroom 
instruction on social media awareness, and officer candidates receive a 
guided discussion on ``Being a Lieutenant of Marines'' taught by the 
OCS Commander that covers social media awareness.
                            recruit training
    47. Senator Warren. General Neller, you disagreed with the 
characterization that marine recruit training was segregated: ``I would 
not couch our recruit training as segregated.'' Please provide a full 
break down of the activities male and female recruits perform together 
and those activities that they perform separately.
    General Neller. During recruit training, approximately 61 percent 
of training for males and females is conducted in the same place at the 
same time. During the first phase of recruit training (shipping and 
receiving), classroom academics, and water survival (approximately 57 
hours of training) are conducted concurrently (male/female). During the 
second phase (grass/firing weeks and Marksmanship Training Platoon), 
Team Week, Basic Warrior Training and Table 2 firing (approximately 153 
hours) are conducted concurrently. During Phase 3 (academic testing), 
The Crucible, Emblem Ceremony, liberty, Marine Week, Family Day, and 
Graduation are conducted concurrently (approximately 169 hours). The 
remaining time is gender-separate, predominately during gender-specific 
wellness classes, activities that highlight the physical capability 
differences between the sexes, and barracks time. The Center for Naval 
Analyses (CNA) is currently researching the extent and effectiveness of 
gender-combined training and possible options to increase gender-
combined training at Parris Island.

    48. Senator Warren. General Neller, how many male recruits 
graduated from Marine Recruit Depot Parris Island each year for the 
past five years? How many females?
    General Neller did not respond in time for printing. When received, 
answer will be retained in committee files.

    49. Senator Warren. General Neller, how many male recruits 
graduated from Marine Recruit Depot San Diego each year for the past 
five years?
    General Neller. During the past five years, an average of 15,559 
males graduated from San Diego. See the table below:

----------------------------------------------------------------------------------------------------------------
                                                          Year to date
               -------------------------------------------------------------------------------------------------
                    FY12          FY13          FY14          FY15          FY16          FY17          TOTAL
----------------------------------------------------------------------------------------------------------------
Male                 16,003        16,818        13,749        15,556        15,669         3,314       81,109
----------------------------------------------------------------------------------------------------------------
Data retrieved on 3/20/2017.

    [The outside statement of John Rowan follows:]

          Vietnam Veterans of America's Statement for Record:
                 john rowan, national president and ceo
    Chairman McCain, Ranking Member Reed, Members of the Senate Armed 
Services Committee, we thank you for the opportunity to submit this 
statement for the record. Like everyone in this room, we are appalled 
by the events that brought us together for this hearing today. It's 
hard to imagine how someone in uniform could have so little respect for 
their colleagues and for their service that they would engage in this 
despicable campaign of cyber bullying. Yet, as the shock wears off, we 
are unsurprised by this ugly news. In 2014, an investigation by Task & 
Purpose revealed many of the exact same issues. The failure of the 
Department of Defense to respond appropriately back then only 
reinforced the behavior that was exposed again by the recent reporting 
by War Horse.
    While it is necessary to devote significant attention to the bad 
actors in this scandal, we're calling Congress and on the Department of 
Defense to not only to focus on investigations of this behavior, but to 
make supporting victims their first priority when responding to 
``Marines United.'' Every servicemember and veteran who investigators 
can positively identify as a victim in this scandal should be informed 
of their full legal rights, provided appropriate psychological 
counseling and legal support, and should be guaranteed absolute 
protection from retaliation.
    The War Horse and Reveal News recently uncovered a massive 
investigation into hundreds of marines who had shared explicit photos 
on the ``Marines United'' Facebook page, which has since been shut 
down. Days later, Task & Purpose, a military and veterans news and 
culture website has independently confirmed that veterans involved in 
the original ``Marines United'' page have uploaded a collection of the 
photos and videos to the website Pornhub. Thomas Brennan, a marine 
veteran, Purple Heart recipient, and founder of The War Horse has 
received threats after breaking the story on March 4. The Military 
Times has reported that this issue is not unique to the Marine Corps, 
and that other branches are initiating their own investigations.
    While we welcome Secretary of Defense Mattis and General Robert 
Neller's condemnations of those involved in posting these photos and 
the tens of thousands of bystanders who condoned the behavior, we 
remain concerned that too little is being done to support the women who 
have been the victims of this outrageous behavior. Here's what these 
women need to know: First and foremost, we love and respect you. We in 
the community of military and veteran service organizations are here to 
support you now and forever. We'll be standing by organizations such as 
Service Women's Action Network and Protect Our Defenders who have been 
leading from the front in this battle against sexism in the military.
    The Department of Defense needs to ensure that servicemembers know 
that the Department of Veterans Affairs offers free counseling for 
survivors of military sexual trauma (MST) regardless of whether or not 
that incident was reported while the members were on duty. We know that 
many veterans who reported MST in the past have received bad-paper 
discharges, and Congress, the Department of Defense, and the Department 
of Veterans Affairs must do more for them too. Veterans should know 
that anyone on Active Duty, and any veteran who has experienced MST can 
get counseling at Vet Centers across the country, regardless of 
discharge. The Department of Defense needs to include this information 
in their statements regarding this investigation.
    To the servicemembers and veterans impacted by this scandal, our 
message is this: You are not alone. We're with you.
    Next, we'd like to encourage the military to make full use of the 
Uniform Code of Military Justice in accordance with the actions of each 
individual involved in the ``Marines United'' Facebook page and any 
like it. The military has a history of taking shortcuts by issuing 
administrative discharges when justice demands more. We want to ensure 
that punishments for those involved are tailored to match the level of 
severity of each individual's actions. We ask that the Services utilize 
courts martial when appropriate, and that there is no discrimination by 
officer or enlisted status, by rank, or by time in service.
    Recognizing that it is likely that some of those involved in 
behavior violating the code of conduct expected of servicemembers could 
be impacted by post-traumatic stress disorder or traumatic stress 
disorder, and that separation for those individuals may be likely, we 
urge the Services to consider the effect of a less-than-honorable 
discharge on the ability of these veterans to recover from the wounds 
of war. While many of those involved may be allegedly facing serious 
charges, we urge the Services to consider forms of punishment, when 
necessary, that are appropriately harsh, but do not include a lifetime 
denial of healthcare. That is not to say that no servicemember guilty 
of serious misconduct deserves the harshest of discharges, but every 
veteran should have the right to due process by court martial before 
receiving such a punishment.

    [The outside statement of Erin Kirk-Cuomo follows:]

 written testimony of not in my marine corps, presented by co-founder 
erin kirk-cuomo, before senate armed services committee, march 14, 2017
    Chairman McCain, Senators of the Committee,
    Not in My Marine Corps (#NotInMyMarineCorps) is a group of 
dedicated Active Duty and veteran military members, joined together to 
advocate against sexual harassment and assault in the U.S. Military. 
This group exists as a vehicle for impacted servicemembers of all 
military branches to share their stories in an effort to shine a light 
on the pervasive conduct and attitudes that lead to such toxic 
behavior. We provide a platform of support, ways to report, mental 
health services, removal of unwanted content from the web, and legal 
services. We demand that all servicewomen, servicemen, and civilians 
receive the protections and respect they deserve, and no longer be 
subject to these demoralizing behaviors from fellow servicemembers 
which encourage rape culture and sexism.
    The issues of nonconsensual photo sharing, reported for the past 
week by multiple news outlets, were not a surprise to women in the 
military. Women servicemembers brought sites with content like Marines 
United and Anon-IB to their leadership's attention for over a decade, 
and were told that the online issues were ``too big to handle.'' These 
photographs were taken without our knowledge, stolen from our social 
media accounts, or shared beyond the original intended recipient, with 
the sole intent of exploitation, denigration, and ridicule. Women have 
been subject to surreptitious photo sharing within units and bases for 
far too long in ways that extend beyond social media. We have received 
many stories over the past week from describing instances of just this 
type. For example, a staff non-commissioned officer shared her story on 
condition of anonymity:

        ``I was at a senior enlisted (E-7) leadership school and was 
        participating in outdoor team-building activities. Afterward, a 
        male classmate . . . asked me if I knew about mind the gap. I 
        said yes, and he said he planned to send in some photos he took 
        from his work phone that day. I became alarmed, and went to the 
        class leader (another male classmate) to confront the issue. I 
        asked to see the photos, and discovered a . . . trove of 
        sexist, racist, and generally offensive photos and memes - some 
        saved from outside sources, and some obviously taken secretly 
        including a photo of me taken without my knowledge, aimed at my 
        upper thigh ``gap'' and other photos of female classmates' 
        cleavage, etc. The class leader insisted the issue be squashed 
        by simply deleting the photos, and it went no further. Since 
        the photos weren't deleted in front of me, I fear they could be 
        on MU, AnonIB, or similar site.``

    Stories like this prove that women in the military are not given a 
buffer due to rank and its privileges.
    Marine Corps Commandant General Neller said last Friday, ``the only 
way we can fix this is if someone comes forward and tells us what 
happened to them.'' We have been coming forward for years. When we came 
forward we were continually dismissed. We were told to grow thicker 
skin and suck it up. This is a boy's club--and boys will be boys. As a 
response to reporting, we were simply given a forced apology as a form 
of punishment for the perpetrators. At worst, we were labeled with 
derogatory terms for reporting, ostracized from our units, and forced 
out of potential life-long careers in the Marine Corps simply because 
we spoke up.

        ``When I was stationed in 29 Palms, I was hanging out with a 
        few NCOs and we were all having a good time and having some 
        drinks. I consensually had sex with one of them. I found out . 
        . . his roommate video-taped what happened. He bragged about 
        it. I had to confront him and threaten to tell. I hated having 
        to pull that card and potentially ruin his career, but they 
        forced my hand by putting me in that situation. The Sgt cried 
        and apologized. Destroyed the footage in front of me. Thank God 
        it was in the early 2000s before camera phones and youtube. 
        Thank God I was able to stop it from ruining my career, and his 
        for that matter. He claimed he didn't know his roommate taped 
        us. Maybe that's true, maybe not. I don't care either way. It 
        angers me that even when I thought I was in control of myself 
        and making a consensual decision, there was another male who 
        sought to take control of the situation and exploit me.''

    It is not popular to speak truth to power when the message points 
the finger of culpability right at the top of the proverbial totem 
pole. It's nearly impossible to feel safe enough to make a report when 
the ones accused are in your chain of command. The 2014 Sexual Assault 
Report from RAND shows that of the total reports made by female 
servicemembers, 67 percent of offenders were of higher rank, and 58 
percent were a unit leader/supervisor. Not In My Marine Corps believes 
senior female staff non-commissioned officers and commissioned officers 
must take a greater role and have an open door policy for reporting 
sexual assault and harassment. The chain of command has failed and 
continues to fail those victimized by sexual assault and harassment.
    Since the Marines United story broke last week, military and 
legislative leaders have acknowledged the need to address the issues of 
punishing online sexual harassment. There is no substantive or 
comprehensive federal law that would punish the actions of those 
involved in Marines United, Anon-IB, or similar sites. We are calling 
for legislation that makes it a federal crime to distribute a private, 
visual depiction of a person's intimate parts, or of a person engaging 
in sexual act, with a disregard for a person's lack of consent to the 
sharing. We also believe an amendment to the Uniformed Code of Military 
Justice is necessary to specifically address punitive liability for 
actions of non-consensual pornography and exploitation, regardless of 
the means (social media, text message, e-mail) used to distribute.
    Not In My Marine Corps requests that all votes on the Department of 
Defense non-civilian nominations, or general officers, be suspended 
until every submitted candidate is on the record pledging support to 
make the issues surrounding the Marines United and Anon-IB 
nonconsensual photo sharing a priority. These candidates must strongly 
state their commitment to thoroughly investigate, across military 
branches, the issues of nonconsensual photo sharing, harassment, 
assault, exploitation, and online harassment by servicemembers and 
veterans. We request their support for an amendment to the Uniform Code 
of Military Justice to specifically address nonconsensual photo 
sharing, online harassment, and rape culture language as recently 
revealed on sites like Marines United and Anon-IB. Furthermore, we 
request that all future Marine Corps general officer candidates state 
their dedication to ending gender segregation in Marine Corps basic 
training, as this practice lays the foundation for the actions and 
attitudes appearing on Marines United and similar sites.
    We believe the culture of the military must fundamentally change in 
order to provide a safe work environment free from harassment and 
assault, and an end to the mentality in which women are considered 
inferior. We believe this is a battle that can and will be won; as 
female marines, we are accustomed to fighting uphill battles. General 
Robert Neller expressed a sentiment on Friday during his press 
conference that women in the Marine Corps have been feeling since our 
introduction to the Corps. ``We have been fighting for 15 years, men 
and women side by side. ( . . . ) So what do you have to do to get in? 
What do you have to do to get in?'' Women have fought and bled on the 
front lines of this country's wars dating back to 1812 when Lucy Brewer 
disguised herself as a man named George Baker and served as a marine 
aboard the USS Constitution. Since that day we have been fighting not 
only for our country, our Corps, but also for acceptance. We wait for 
the day when the quote by LtGen Thomas Holcomb, 17th Commandant of the 
Marine Corps, finally rings true for all marines. ``They (women 
marines) don't have a nickname, and they don't need one. They get their 
basic training in a Marine atmosphere, at a Marine Post. They inherit 
the traditions of the Marines. They are Marines.''

Signed,

Erin Kirk-Cuomo, Co-Founder, Veteran United States Marine Corps
Lisa Gleason, Co-Founder, Veteran United States Marine Corps
Jennifer Esparza, Co-Founder, Veteran United States Marine Corps
Sara [redacted], Co-Founder, Active Duty United States Coast Guard

                                 [all]
</pre></body></html>
